<html>
<title> - A REPORT ON LATEST ROUND OF SIX-WAY TALKS REGARDING NUCLEAR WEAPONS IN NORTH KOREA</title>
<body><pre>[Senate Hearing 108-709]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-709
 
 A REPORT ON LATEST ROUND OF SIX-WAY TALKS REGARDING NUCLEAR WEAPONS IN 
                              NORTH KOREA

=======================================================================




                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 15, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate










                 U.S. GOVERNMENT PRINTING OFFICE

97-122                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001












                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  













                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3

Brownback, Hon. Sam, U.S. Senator from Kansas, material submitted 
  for the record:
    ``The Hidden Gulag, Exposing North Korea's Prison Camps,'' 
      Executive Summary, David Hawk, U.S. Committee for Human 
      Rights in North Korea......................................    25
    ``Auschwitz Under Our Noses,'' by Anne Applebaum, The 
      Washington Post, Feb. 4, 2004..............................    27
    Trafficking in Persons report, U.S. Department of State, 
      information on North Korea.................................    29

Carter, Hon. Ashton B., former Assistant Secretary of Defense for 
  International Security Policy; Professor of Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University, Cambridge, MA..............................    33
    Prepared statement...........................................    38

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    19

Kelly, Hon. James A., Assistant Secretary of State, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State; 
  accompanied by: Mr. Joseph R. DeTrani, Special Envoy for 
  Negotiations with North Korea and U.S. Representative to the 
  Korean Peninsula Energy Development Organization, KEDO, 
  Washington, DC.................................................     5
    Prepared statement...........................................     8

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

Pritchard, Hon. Charles L., Visiting Fellow, The Brookings 
  Institution, Washington, DC....................................    41
    Prepared statement...........................................    46

U.S. Committee for Human Rights in North Korea, statement 
  submitted for the record.......................................    56

                                 (iii)

  












A REPORT ON LATEST ROUND OF SIX-WAY TALKS REGARDING NUCLEAR WEAPONS IN 
                              NORTH KOREA

                              ----------                              


                        THURSDAY, JULY 15, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 9:35 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Hagel, Brownback, Biden, Feingold, 
and Bill Nelson.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the committee once again turns its attention to North 
Korea. I am especially pleased to welcome Assistant Secretary 
of State James Kelly, who will provide an update on the latest 
round of six-party talks, as he did earlier this year during 
our March 2 hearing on North Korea. Secretary Kelly is 
accompanied today by Mr. Joseph DeTrani, Special Envoy for 
Negotiations with North Korea and U.S. Representative to the 
Korean Peninsula Energy Development Organization, KEDO.
    The world acknowledges the importance of the six-party 
talks in providing regional stability and preventing another 
war on the Korean Peninsula. The North Korean regime's drive to 
build nuclear weapons and other weapons of mass destruction 
poses a grave threat to American national security. We are 
concerned about the transfer of North Korean weapons, 
materials, and technology to other countries or to terrorist 
groups. In addition, we must remain vigilant to avoid a 
miscalculation that could lead unintentionally to war.
    The purpose of today's hearing is to provide Secretary 
Kelly and Special Envoy DeTrani an opportunity to provide a 
clear account of events in Beijing. They were the leaders of 
the United States delegation in the Plenary and Working Group 
sessions. I am very pleased by their willingness to visit with 
the committee in an open session.
    As we meet, events are developing rapidly in northeast 
Asia. President Bush originally envisioned a strategy 
incorporating a multilateral approach to addressing North 
Korea's nuclear programs, with a goal of forging a united front 
with South Korea, Japan, Russia, and China. However, in an 
effort to scuttle the six-party process, North Korea has 
accelerated bilateral dialog with its neighbors on a myriad of 
issues.
    South Korea recently engaged in high level military-to-
military discussions with North Korea and reached agreement on 
a number of issues. Kim Jong-il has displayed a new flexibility 
with the Japanese on the abduction issue, and it appears that 
Japan and North Korea may normalize relations within a year. 
The Chinese continue providing massive assistance to North 
Korea, and the Russian Foreign Minister recently returned to 
Moscow from a high-level visit to Pyongyang.
    While I appreciate the inclination of countries within the 
region to respond to initiatives from Pyongyang, these 
initiatives have not diminished the necessity of eliminating 
North Korea's nuclear programs. And I am hopeful that the 
leadership of Japan, South Korea, Russia, and China will 
continue to work with the Bush administration in a multilateral 
context for a peaceful resolution of this matter.
    Both North Korea and the United States presented detailed 
proposals in Beijing. Secretary Kelly and Special Envoy DeTrani 
exhibited appropriate flexibility by engaging in occasional 
bilateral interaction with North Korean officials.
    I also extend appreciation to administration officials for 
continuing to raise human rights issues with the North Koreans. 
This committee is committed to the resolution of ongoing human 
suffering in North Korea's gulags and prison system.
    In addition to Secretary Kelly and Special Envoy DeTrani, 
the committee will hear from Dr. Ashton Carter of the JFK 
School of Government at Harvard. As one who was deeply involved 
in launching the Pentagon's Counter-Proliferation Initiative 
some 10 years ago when he was Assistant Secretary of Defense in 
the Clinton administration, he knows that negotiations are only 
the first step in a successful counter-proliferation process. 
We have asked Dr. Carter to consider the administration's 
proposal to the North Koreans and to reflect on the kinds of 
strategies and programs necessary for freezing, disabling, and 
dismantling North Korea's nuclear programs. I am particularly 
interested in his analysis as to whether and how we might apply 
programs like the Nunn-Lugar Cooperative Threat Reduction 
program to North Korea. Is such a program feasible and what 
would be involved in its implementation? Under what 
circumstances, if any, might North Korea agree to open itself 
to unfettered inspections of its nuclear program?
    Ambassador Jack Pritchard is with us today as well. He has 
extensive background on several fronts related to North Korea, 
and will specifically address the energy portion of the United 
States' proposal. He served as Ambassador and Special Envoy for 
Negotiations with North Korea and U.S. Representative to KEDO. 
During his 5 years on the National Security Council staff, 
Ambassador Pritchard was involved in negotiations with North 
Korea. He accompanied the Secretary of State, Ms. Albright, on 
her visit to Pyongyang in 2000.
    We look forward to engaging our distinguished witnesses on 
the situation in North Korea and U.S. policy options toward the 
peninsula. It is a special privilege to have these four 
remarkable Americans before us in open session so that all 
Americans may be the beneficiaries of this hearing and their 
wisdom and consideration.
    When the ranking member, Senator Biden, arrives, I will 
recognize him, of course, for an opening comment. I ask my 
colleague, Senator Hagel, if he has an opening comment that he 
would like to make.
    Senator Hagel. Well, I have just been overtaken by events.
    Senator Biden. No.
    The Chairman. Please continue while Senator Biden is 
collecting his thoughts.
    Senator Biden. I associate myself with my friend's remarks 
before he makes them.
    Senator Hagel. I have no formal statement, Mr. Chairman, 
other than to acknowledge once again your efforts to enlighten 
our country and this institution on some of the most critical 
policy issues that we are dealing with.
    I appreciate, as you have noted, our witnesses and their 
service to our country and look forward to their testimony. 
Thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Biden.


           opening statement of senator joseph r. biden, jr.,
                             ranking member


    Senator Biden. Thank you, Mr. Chairman, and thank you for 
holding this hearing which is going to give us an update on our 
country's efforts to convince the North Koreans to abandon 
their dangerous pursuit of nuclear weapons and the path that 
they are on.
    I am anxious to hear from our witnesses today, particularly 
Secretary Kelly.
    At the recent third round of talks, the United States, for 
the first time in my understanding, put forward a reasonably 
comprehensive and detailed road map for how the crisis might be 
resolved. The U.S. plan reportedly offers various incentives to 
North Korea: multilateral security assurances, fuel oil, 
sanctions relief, and the promise for eventual diplomatic 
normalization, provided--a big caveat--that North Korea pledges 
to verifiably dismantle its nuclear programs and then follows 
through on that commitment.
    I must note, Mr. Chairman, that the United States has not 
presented any proposal addressing North Korea's export of 
ballistic missiles, but perhaps that will come at a later date.
    North Korea promised to study the U.S. proposal and also 
presented a freeze proposal of its own.
    Obviously, an awful lot of hard work remains to be done if 
we are to reach out and get accord here, and it is not clear, 
for instance, in my view how any deal would be verified and by 
whom. North Korea still has not admitted to the existence of an 
uranium enrichment program, a program that has to be abandoned 
if we are to forge this new relationship.
    But the exchange of views in Beijing represented progress 
in my view, and I hope we can now get to the real meat of these 
negotiations.
    Mr. Chairman, it has been more than 3 years since the 
Secretary of State proclaimed the United States' intention to 
``pick up where the Clinton administration left off'' and work 
to eliminate North Korea's--and that is a quote ``pick up where 
the Clinton administration left off'' and work to eliminate 
North Korea's nuclear program and to curtail its destabilizing 
export of ballistic missile technology.
    Unfortunately, the White House overruled Secretary Powell 
and adopted a posture in my view of benign neglect. Even after 
learning of North Korea's attempts to develop uranium 
enrichment capacity in the summer of 2002, the administration 
took more than 2 years to resolve its internal divisions and 
settle on an approach for dealing with North Korea. North Korea 
has used this time apparently to quadruple its stockpile of 
plutonium, and therefore perhaps its nuclear arsenal, 
progressing from an estimated one to two nuclear weapons to 
perhaps as many as eight or more. North Korea has been busy 
modernizing and upgrading its ballistic missile force, although 
it has not flight-tested any new long-range missiles. The 
bottom line is that we now confront a much more dangerous 
adversary than we did in 2001.
    I am not at all certain--and I want to make the point 
clearly. A little humility is in order here. I am not certain 
that if the administration listened to your suggestions and 
mine and others' to do what they finally have done, have 
bilateral discussions with North Korea, which was proposed over 
2 years ago by this committee, that we would necessarily be in 
any better shape. I do not know that. I cannot look back and 
suggest that. But I am certain that the approach taken was not 
productive.
    But we are where we are. As former Defense Secretary 
William Perry reminds us, we must deal with North Korea as it 
is, not as we would wish it to be.
    So I commend the administration for finally putting 
together a decent proposal to test North Korea's intentions, 
and I hope North Korea will respond positively at the next 
round of talks scheduled in September.
    Fortunately, North Korea's neighbors share a commitment of 
achieving a non-nuclear Korean Peninsula, and I am pleased that 
the administration has begun to listen more closely to the 
advice that has been offered, consistently offered, by the 
South Korean and Japanese allies and by our Russian and Chinese 
negotiating partners. Together we might convince North Korea to 
change its course, although I am not betting next year's 
tuition on that. I understand this is going to be very 
difficult.
    Mr. Chairman, I hope North Korea will not squander this 
chance to improve its relations with its neighbors, to trade 
false security offered by its nuclear weapons for a very real 
security that would come from integration into one of the 
world's most dynamic economic regions, and normalization of 
relations with South Korea, Japan, and the United States.
    Convincing North Korea to completely and verifiably 
dismantle its nuclear weapons program and its missile program 
is not going to be easy. North Korea is a weak and isolated 
state. The North's leaders consider weapons to be the ultimate 
guarantor of the regime's survival, and they are obviously 
reluctant to give them up. But in reality, the North's nuclear 
program is a giant albatross around its neck, a waste of 
resources, strains relations with its neighbors, and 
jeopardizes the regional peace and security. I hope that the 
leadership of North Korea will come to realize, through the 
multilateral talks now underway, that North Korea will choose a 
path of peace and integration over a path of confrontation and 
isolation, although I am not prepared, as I said, to bet 
tuition on that.
    I thank the chairman for his dedication to this issue, look 
forward to hearing the witnesses, and am delighted that we have 
at least moved to this point where there is a prospect of 
knowing what the full offer on the table is with us for North 
Korea. Again, I thank you, Mr. Chairman, for holding this 
hearing. I look forward to hearing our witnesses.
    The Chairman. Well, I thank you, Senator Biden, for your 
leadership on this issue, and likewise for the bipartisan way 
in which we have approached a very serious issue for our 
country. It is in that spirit that the hearing is held this 
morning. We are grateful for these witnesses in open session.
    I would like to call now, first of all, upon Secretary 
Kelly, to be followed by any comments that Mr. DeTrani might 
have. Would you please proceed.

STATEMENT OF HON. JAMES A. KELLY, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
  STATE; ACCOMPANIED BY: JOSEPH R. DeTRANI, SPECIAL ENVOY FOR 
 NEGOTIATIONS WITH NORTH KOREA, AND U.S. REPRESENTATIVE TO THE 
     KOREAN PENINSULA ENERGY DEVELOPMENT ORGANIZATION, KEDO

    Mr. Kelly. Thank you very much, Mr. Chairman, Senators, for 
this timely opportunity to meet with the committee again to 
discuss the efforts the United States and like-minded countries 
to deal with the threat of North Korea's nuclear ambitions.
    I have a much longer statement for the record, and I will, 
with your permission, sir, present only an abbreviated version 
here orally.
    The Chairman. The statement will be published in full, and 
that will be true for each of the submitted statements by our 
witnesses today.
    Mr. Kelly. I will focus my remarks on these four topics: a 
brief overview of the DPRK's longstanding determination to move 
ahead with its nuclear weapons programs; second, the Bush 
administration's commitment to multilateral diplomacy; third, 
an explanation of the proposal that the U.S. tabled at the 
third round of the six-party talks last month and of the 
proposal tabled by the DPRK; and last, the opportunity the DPRK 
has now to improve its relations with the international 
community and to reap the full rewards of trade, aid, and 
investment, and what North Korea's neighbors and the 
international community expect in return.
    North Korea's nuclear programs are a longstanding threat. 
As I detail in the full statement, the DPRK leadership decades 
ago set out on a path to acquire nuclear weapons. That effort 
led to mounting tensions with the United States and the 
international community.
    In 1993, after North Korea announced its intention to 
withdraw from the Nuclear Non-Proliferation Treaty for the 
first time, the United States and North Korea began high-level 
talks that culminated in the Agreed Framework of 1994. That 
agreement obligated the DPRK not to produce fissile material at 
its declared nuclear facilities at Yongbyon and its preface 
stated that its purpose was ``an overall resolution of the 
nuclear issue on the Korean Peninsula.''
    The Agreed Framework did not, as we learned later, end the 
North Korean nuclear arms programs. By the fall of 2002, our 
intelligence community assessed that North Korea was pursuing a 
covert program to produce enriched uranium and had been 
pursuing it for a number of years, even as it negotiated with 
senior American officials to improve relations.
    I led a delegation to Pyongyang in October of 2002 to 
confront the North Koreans with our assessment that they have a 
uranium enrichment program. Instead of taking the opportunity 
we had afforded them to begin walking back their covert uranium 
enrichment program, the North Koreans escalated the situation, 
expelling International Atomic Energy Agency inspectors, 
reactivating the 5-megawatt reactor at the place called 
Yongbyon, and announcing its withdrawal from the NPT. If the 
DPRK, as it has declared, has finished reprocessing its 8,000-
plus existing spent fuel rods, it could have produced enough 
fissile material for several additional nuclear weapons.
    The United States has adhered to two basic principles to 
resolve this threat. First, we seek the complete, verifiable, 
and irreversible dismantlement of its nuclear programs, nothing 
less. We cannot accept another partial solution that does not 
deal with the entirety of the problem, allowing North Korea to 
threaten others continually with the revival of its nuclear 
program. Second, because the North's nuclear programs threaten 
its neighbors and the integrity of the global nuclear non-
proliferation regime, the threat can best be dealt with through 
multilateral diplomacy.
    I can report some progress to you on both counts. I have 
reported to you before on earlier trilateral and six-party 
discussions, all of which set the stage for our third round of 
discussions last month in Beijing. These were useful and 
constructive.
    The working group met June 21 and 22 and the plenary for 4 
days after that. Over the course of that time in Beijing, the 
United States met directly with all of the parties, as we have 
at all of the sessions of the six-party talks.
    In addition to the United States' proposal other parties 
put forward constructive proposals, which I have outlined in 
the prepared statement. We had not expected breakthroughs and I 
have none to report to the committee.
    Under the U.S. proposal, developed in close coordination 
with the Republic of Korea and Japan, the DPRK would, as a 
first step, commit to dismantle all of its nuclear programs. 
The parties would then reach agreement on a detailed 
implementation plan requiring, at a minimum, the supervised 
disabling, dismantlement, and elimination of all nuclear-
related facilities and materials; the removal of all nuclear 
weapons and weapons components, centrifuge and other nuclear 
parts, fissile material, and fuel rods; and a long-term 
monitoring program. This would include North Korea's uranium 
enrichment program, which the DPRK continues to deny.
    We envisage a short initial preparatory period of perhaps 3 
months' duration to prepare for the dismantlement and removal 
of the DPRK's nuclear programs. DPRK actions would be 
monitored, subject to international verification.
    Under our proposal, as the DPRK carried out its 
commitments, the other parties would take some corresponding 
steps. These would be provisional or temporary in nature and 
would only yield lasting benefits to the DPRK after the 
dismantlement of its nuclear programs had been completed.
    Now, the steps would include: Upon agreement of the overall 
approach, including a DPRK agreement to dismantle all nuclear 
programs in a permanent, thorough, and transparent manner, 
subject to effective verification, non-U.S. parties would 
provide heavy fuel oil to the DPRK. Upon acceptance of the DPRK 
declaration, the parties would provide provisional multilateral 
security assurances, which would become more enduring as the 
process proceeded. Begin a study to determine the energy 
requirements of North Korea and how to meet them by non-nuclear 
energy programs, and begin a discussion of steps necessary to 
lift remaining economic sanctions on the DPRK and on steps 
necessary to remove the DPRK from the list of state sponsors of 
terrorism.
    Secretary Powell told the North Korean Foreign Minister, at 
the ASEAN regional forum in Indonesia on July 2, that the U.S. 
proposal aimed to go forward on the dismantlement of North 
Korean nuclear programs and that there is an opportunity for 
concrete progress.
    The DPRK proposal restated its goal of a freeze for 
rewards, including energy assistance, lifting of sanctions, and 
removal from the list of countries sponsoring terrorism. We are 
continuing to study the North's proposal. As I noted, it is 
clear we are still far from agreement.
    Our initial assessment is that the DPRK proposal lacks 
detail and is vague on a number of key elements. Still, there 
are some positive elements and positions that have been staked 
out. The DPRK claimed that the freeze would be the first step 
on the path to nuclear dismantlement, not an end to itself, and 
on that point we agree.
    We and other parties have questions about the DPRK 
proposal, including what the scope of the freeze and 
dismantlement would be. We will continue to seek answers 
through the six-party process. To that end, the parties agreed 
to hold the fourth round of talks by the end of September and a 
working group meeting in the interim as soon as possible to 
prepare for the fourth round.
    Mr. Chairman, the six-party talks offer North Korea the 
opportunity to improve its relations with the United States and 
Japan, to end its self-induced political and economic 
isolation, and to harness the benefits of normal international 
trade and aid, including establishing relationships with the 
international financial institutions.
    Although I remain optimistic on where the talks could lead, 
I personally could not say at this point that the DPRK has, 
indeed, made the strategic calculation to give up its nuclear 
weapons in return for real peace and prosperity through trade, 
aid, and economic development.
    I believe that diplomacy is the best way to overcome North 
Korea's nuclear threat and that the six-party process is the 
most appropriate approach. Our aim is to fully and finally 
resolve the nuclear program, not to implement half-measures or 
sweep the problem under the rug for future policymakers to deal 
with. We are pursuing this course patiently and are committed 
to its success.
    That concludes my statement, Mr. Chairman. Mr. DeTrani, who 
does not have a statement, and I look forward to responding to 
the questions that you and the committee will offer.
    [The prepared statement of Mr. Kelly follows:]

               Prepared Statement of Hon. James A. Kelly

              dealing with north korea's nuclear programs
    Thank you, Mr. Chairman, for this timely opportunity to meet with 
the committee again to discuss the efforts of the United States and 
like-minded countries to deal with the threat of North Korea's nuclear 
ambitions.
    I will focus my remarks on these four topics:

  <bullet> A brief overview of the problem. of the DPRK's long-standing 
        determination to move ahead with its nuclear weapons programs, 
        and why previous efforts to achieve a nuclear-free Korean 
        Peninsula did not succeed;

  <bullet> The Bush Administration's commitment to multilateral 
        diplomacy to achieve the full denuclearization of the Korean 
        Peninsula, through the Six-Party Talks;

  <bullet> An explanation of the proposal the U.S. tabled at the third 
        round of the Six-Party Talks in Beijing last month, and of the 
        proposal tabled by the DPRK; and

  <bullet> The opportunity the DPRK has now to improve its relations 
        with the international community and to reap the full rewards 
        of trade, aid and investment--and what North Korea's neighbors 
        and the international community expect in return.

North Korea's Nuclear Programs
    North Korea's nuclear programs are a longstanding threat. The DPRK 
leadership decades ago set out on a path that would allow it to acquire 
nuclear weapons. After conducting research throughout the sixties and 
seventies at a reactor provided by the Soviet Union, the DPRK began 
construction in 1979 of the 5-MWe reactor at Yongbyon, from which it 
could extract and reprocess plutonium. That reactor became operational 
in 1986.
    In 1985, while construction was going on at Yongbyon, international 
pressure convinced North Korea to sign the Nuclear Non-Proliferation 
Treaty. However, it was not until 1992 that it finally signed a 
comprehensive safeguards agreement and within months the IAEA found 
evidence of inconsistencies in North Korea's declarations. I should add 
that throughout the 1990s the IAEA continued to find the DPRK in 
noncompliance of its safeguards agreement.
    Also in 1992, the DPRK reached an agreement with the Republic of 
Korea for a Korean Peninsula free of nuclear weapons, but the North 
never moved to implement it.
    By 1993, IAEA pressure for additional inspections led North Korea 
to announce its intention to withdraw from the NPT. As tensions 
mounted, the United States and North Korea began high-level talks that 
culminated in the Agreed Framework of 1994. That agreement obligated 
the DPRK not to produce fissile material at its declared nuclear 
facilities at Yongbyon and its preface stated that its purpose was ``an 
overall resolution of the nuclear issue on the Korean Peninsula.''
    The Agreed Framework left resolution of pre-1993 discrepancies, 
especially quantities of plutonium that the DPRK might have recovered, 
for the distant future, linked to construction progress on the light 
water reactors provided under the Agreed Framework. The Agreed 
Framework did not, as we learned later, end the North Korean nuclear 
arms programs. By the fall of 2002, our intelligence community assessed 
that North Korea was pursuing a covert program to produce enriched 
uranium--in violation of the Agreed Framework, the North-South Joint 
Declaration on the Denuclearization of the Korean Peninsula, the 
Nuclear Non-Proliferation Treaty, and the DPRK's Safeguards Agreement 
with the International Atomic Energy Agency. In fact, we determined 
that North Korea had been pursuing the program for a number of years, 
even as it was negotiating with senior American officials to improve 
relations.
    By the way, our negotiator for the Agreed Framework, Ambassador 
Robert Gallucci, had left the North Koreans in no doubt that that any 
uranium enrichment program would violate the Agreed Framework. 
Ambassador Gallucci testified before Congress in December 1994 that the 
Agreed Framework required the DPRK to implement the North-South Joint 
Denuclearization Declaration, which precludes any reprocessing or 
enrichment capability. ``If there were ever any move to enrich,'' he 
told this committee, ``we would argue they were not in compliance with 
the Agreed Framework.''
    I led a delegation to Pyongyang in October 2002 to confront the 
North Koreans with our assessment that they have a uranium enrichment 
program. DPRK First Vice Foreign Minister Kang Sok Ju told us that the 
hostile policy of the U.S. Administration had left North Korea with no 
choice but to pursue such a program. When I pointed out our assessment 
that North Korea had been pursuing such a program for years, he had no 
response.
    Instead of taking the opportunity we had afforded them to begin 
walking back their covert uranium enrichment program, the North Koreans 
escalated the situation. In December 2002, they expelled IAEA 
inspectors and began to reactivate the 5-megawatt reactor at Yongbyon. 
In January, the DPRK announced its withdrawal from the NPT. And on 
several occasions in 2003, it declared it had finished reprocessing its 
8,000-plus existing spent fuel rods. If that is indeed the case, it 
could have produced enough fissile material for several additional 
nuclear weapons. Since then, the DPRK has stated it is strengthening 
what it calls its nuclear deterrent capability.
Multilateral Solution to a Multilateral Problem
    The United States has adhered to two basic principles to resolve 
this threat from the DPRK. First, we seek the complete, verifiable and 
irreversible dismantlement of the DPRK's nuclear programs--nothing 
less. We cannot accept another partial solution that does not deal with 
the entirety of the problem, allowing North Korea to threaten others 
continually with a revival of its nuclear program. Second, because the 
North's nuclear programs threaten its neighbors and the integrity of 
the global nuclear nonproliferation regime, the threat can best be 
dealt with through multilateral diplomacy.
    I can report some progress to you on both counts.
    Late in 2002, Secretary Powell began talking with countries in East 
Asia about a multilateral forum to make clear to the DPRK it must end 
its nuclear arms programs. He succeeded in persuading the Chinese, who 
in March 2003 took with them to Pyongyang the idea of five-party talks. 
The North Koreans resisted, but eventually agreed when the Chinese 
suggested trilateral talks in Beijing be held with the U.S., North 
Korea, and China.
    After we consulted with our South Korean and Japanese allies, to 
ensure that they supported the idea and assured them they would be in 
future talks, we participated in the trilateral talks in Beijing April 
23-25. By the way, it was at that forum that the North Koreans pulled 
me aside to say that they have nuclear weapons, will not dismantle 
them, and might transfer or demonstrate them. I strongly cautioned them 
against any escalation.
    After those trilateral talks, we kept our promise and insisted that 
the next round of talks should include South Korea and Japan. We also 
supported Russia's inclusion. The Chinese did some more persuading, and 
the North Koreans agreed to participate in Six-Party talks. The first 
round was held in Beijing August 27-29, 2003.
    The other five parties all told North Korea very clearly in plenary 
session that they will not accept North Korea's possessing nuclear 
arms. In response, the North Koreans threatened that they would 
demonstrate nuclear weapons. The North Korean belligerence at the Six-
Party talks had the effect of isolating them. It was a useful first 
step in the difficult process of ensuring the complete, verifiable and 
irreversible dismantlement of the North Korean nuclear arms program.
    The second round of Six-Party talks was in February 2004. The 
parties agreed to regularize the talks, and to establish a working 
group to set issues up for resolution at the plenary meetings. At the 
second round of talks, the ROK offered fuel aid to the DPRK, if there 
were a comprehensive and verifiable halt of its nuclear programs as a 
first step toward complete nuclear dismantlement.
    The third round of talks, held late last month in Beijing, were 
useful and constructive. The working group met June 21-22, the plenary 
June 23-26. Over the course of that time in Beijing, the U.S. met 
directly with all of the parties. We held a two-and-a-half-hour 
discussion with the DPRK delegation. Some press accounts indicated 
that, during that meeting, the North Korean delegation threatened to 
test a nuclear weapon. The North Koreans said that there were some, not 
identified, in the DPRK who wanted to test a nuclear weapon and might 
presumably do so if there was not progress in the talks. The comment 
did not contribute to the comity of the meeting or to any atmosphere of 
trust.
    In addition to the United States' proposal, the ROK put forward a 
concrete, detailed proposal to achieve a denuclearized Korean 
Peninsula. The ROK proposal was consistent with the U.S. approach, but 
I will leave it to our South Korean ally to describe its proposal in 
more detail if it chooses. North Korea, too, participated actively in 
the plenary, offering a proposal for what it describes as the first 
step toward full denuclearization--a freeze of its nuclear-weapons 
related programs in exchange for compensation from the other parties. 
The Japanese also had constructive ideas, strongly supporting proposals 
that would lead to the timely and comprehensive denuclearization of the 
Peninsula subject to international verification, and expressing a 
willingness to provide energy assistance to the DPRK when it is 
verified that the DPRK is actually on the road to denuclearization. The 
PRC, as host, played a role in bringing the parties to Beijing for the 
third round and vigorously sought agreement on the basic principles 
that would underlie any agreement on denuclearization. The Russian 
delegation, under the new leadership of Ambassador Alekseyev, also 
sought to promote agreement among all the parties, and offered details 
of their thinking. We had not expected breakthroughs and I have none to 
report to you. That said, all of the parties, including, in my view, 
the DPRK, went to Beijing prepared for substantive discussions.
    While each party is pursuing its own interests in the talks, all 
have publicly embraced the goal of a denuclearized Korean Peninsula. I 
thought it was significant that Chairman Kim Jong Il discussed the 
talks when he met with Prime Minister Koizumi last month, affirming 
North Korea's commitment to them. That said, proposals offered by the 
parties differ very considerably in substance, as I will detail now.
The U.S. Proposal
    The proposal the U.S. presented was developed in close coordination 
with the Republic of Korea and Japan. Under the U.S. proposal, the DPRK 
would, as a first step, commit to dismantle all of its nuclear 
programs. The parties would then reach agreement on a detailed 
implementation plan requiring, at a minimum, the supervised disabling, 
dismantlement and elimination of all nuclear-related facilities and 
materials; the removal of all nuclear weapons and weapons components, 
centrifuge and other nuclear parts, fissile material and fuel rods; and 
a long-term monitoring program.
    We envisage a short initial preparatory period, of perhaps three 
months' duration, to prepare for the dismantlement and removal of the 
DPRK's nuclear programs. During that initial period, the DPRK would:

  <bullet> Provide a complete listing of all its nuclear activities, 
        and cease operations of all of its nuclear activities;

  <bullet> Permit the securing of all fissile material and the 
        monitoring of all fuel rods, and;

  <bullet> Permit the publicly disclosed and observable disablement of 
        all nuclear weapons/weapons components and key centrifuge 
        parts.

    These actions by the DPRK would be monitored subject to 
international verification.
    At this juncture, I'll emphasize that, for the DPRK's declaration 
to be credible and for the process to get underway, the North would 
need to include its uranium enrichment program and existing weapons, as 
well as its plutonium program. As of now, the DPRK is denying that it 
has a program to enrich uranium, and it speaks of an existing ``nuclear 
deterrent'' but has refrained from stating publicly that it has 
``nuclear weapons.''
    Under our proposal, as the DPRK carried out its commitments, the 
other parties would take some corresponding steps. These would be 
provisional or temporary in nature and would only yield lasting 
benefits to the DPRK after the dismantlement of its nuclear programs 
had been completed. The steps would include:

  <bullet> Upon agreement of the overall approach, including a DPRK 
        agreement to dismantle all nuclear programs in a permanent, 
        thorough and transparent manner subject to effective 
        verification, non-U.S. parties would provide heavy fuel oil to 
        the DPRK.

  <bullet> Upon acceptance of the DPRK declaration, the parties would:

        > provide provisional multilateral security assurances, which 
        would become more enduring as the process proceeded. North 
        Korea's rhetoric on this issue notwithstanding, I would like to 
        point out that it is reasonable to conclude that security 
        assurances given through the multilateral Six-Party process 
        would have considerably more weight than would bilateral 
        assurances;

        > begin a study to determine the energy requirements of the 
        DPRK and how to meet them by non-nuclear energy programs;

        > begin a discussion of steps necessary to lift remaining 
        economic sanctions on the DPRK, and on the steps necessary for 
        removal of the DPRK from the List of State Sponsors of 
        Terrorism.

    Secretary Powell told the DPRK Foreign Minister, at the ASEAN 
Regional Forum in Indonesia on July 2, that the U.S. proposal aimed to 
move forward on the dismantlement of the DPRK's nuclear programs, and 
that there is an opportunity for concrete progress.
The DPRK Proposal
    The DPRK proposal restated its goal of a freeze for rewards, 
including energy assistance, lifting of sanctions, and removal from the 
list of countries sponsoring terrorism. We are continuing to study the 
North's proposal. As I noted, it is clear we are still far from 
agreement.
    Our initial assessment is that the DPRK proposal lacks detail and 
is vague on a number of key elements. The scope is narrow in terms of 
the facilities covered and it ignores pre-2003 plutonium, nuclear 
weapons, and the uranium enrichment program. North Korea would exclude 
the IAEA from verification, seeking to create a new verification regime 
from the Six-Party talks participants. This unprecedented approach 
would be hard to set up and carry out.
    Still, there are some positive elements in positions the DPRK 
staked out. The DPRK claimed that the freeze would be the first step on 
the path to nuclear dismantlement, not an end to itself, and on that 
point we agree.
    The DPRK also confirmed that whatever would be included in the 
freeze would also be included in the commitment to dismantlement 
further down the line.
    Specifically, the DPRK said it would freeze all facilities related 
to nuclear weapons and the products that resulted from their operation, 
refrain from producing more nuclear weapons, transferring them, and 
testing them. The DPRK delegation clearly identified the 5-MWe reactor 
as a nuclear weapons facility. While they said they wanted to maintain 
a civil nuclear program, they also acknowledged that most of their 
nuclear programs are weapons-related.
    We and other parties have questions about the DPRK proposal, 
including what the scope of the freeze and dismantlement would be. 
Again, inclusion of the DPRK's uranium enrichment program is critical. 
We will continue to seek answers through the Six-Party process, though 
we have made clear all along that we are not talking for the sake of 
talking and that we expect tangible progress to be made. To that end, 
the parties agreed to hold the fourth round of talks by the end of 
September and a working group meeting in the interim as soon as 
possible to prepare for the fourth round.
North Korea's Choice
    Mr. Chairman, the Six-Party talks offer North Korea the opportunity 
to improve its relations with the United States and Japan, to end its 
self-induced political and economic isolation, and to harness the 
benefits of normal international trade and aid, including establishing 
relationships with the international financial institutions.
    We have outlined what is necessary to transform our relations with 
the DPRK, just as we have with another nation long isolated in the 
international community, Libya.
    President Bush in his February 11 remarks to the National Defense 
University called on other governments engaged in covert nuclear arms 
programs to follow the affirmative example of Libya. The Libyan case 
demonstrates, as President Bush has said, that leaders who abandon the 
pursuit of weapons of mass destruction and their delivery means will 
find an open path to better relations with the United States and other 
free nations. When leaders make the wise and responsible choice, they 
serve the interests of their own people and they add to the security of 
all nations.
    We have discussed Libya's example with our North Korean 
counterparts, and we hope they understand its significance.
    Of course, to achieve full integration into the region and a wholly 
transformed relationship with the United States, North Korea must take 
other steps in addition to making the strategic decision to give up its 
nuclear ambitions. It also needs to change its behavior on human 
rights, address the issues underlying its appearance on the U.S. list 
of states sponsoring terrorism, eliminate its illegal weapons of mass 
destruction programs, put an end to the proliferation of missiles and 
missile-related technology, and adopt a less provocative conventional 
force disposition.
    Against the backdrop of the Six-Party talks, the DPRK is 
undertaking measures in response to its disastrous economy. It is too 
soon to evaluate the nature or impact of these steps, but we hope they 
will serve as a foundation upon which to build improved economic 
relations with other countries in the future. By addressing the world's 
concerns about its nuclear programs and other issues, the DPRK would 
have both new resources and opportunities to pursue policies for 
peaceful growth in the region that is already perhaps the world's most 
vibrant, East Asia.
    The international community ultimately will gauge the results of 
the Six-Party talks to assess the seriousness of the DPRK's professed 
willingness to give up its nuclear weapons programs. Although I remain 
optimistic on where the talks could lead, I personally could not say at 
this point that the DPRK has indeed made the strategic calculation to 
give up its nuclear weapons in return for real peace and prosperity 
through trade, aid and economic development. My hope is that the 
serious and extensive discussions with the United States, the Republic 
of Korea, Japan, China and Russia will convince the DPRK that a truly 
denuclearized Korean Peninsula is its only viable option.
    I believe that diplomacy is the best way to overcome North Korea's 
nuclear threat and that the Six-Party process is the most appropriate 
approach. Our aim is to fully and finally resolve the nuclear problem, 
not to implement half measures or sweep the problem under the rug for 
future policy makers to deal with. We are pursuing this course 
patiently and are committed to its success.
    That concludes my statement, Mr. Chairman, and Mr. DeTrani and I 
look forward to responding to your questions.

    The Chairman. Well, thank you very much, Secretary Kelly.
    We have two distinguished panels today and we have a number 
of interested Senators. So I am going to suggest our first 
round of questions be limited to 7 minutes to each of us, and 
we will see how that proceeds. There may be opportunities for 
further questions if Senators wish to pursue that.
    Secretary Kelly, I would begin by following through your 
reasoning today that the North Koreans might be willing to 
engage in a freeze of activities. As you say, many questions 
are still to be raised.
    Is there an overall feeling on your part or among the group 
of six that there is a possible formula for the dismantlement 
and destruction of the weapons, in return for assurances of 
non-aggression, some degree of fuel oil, which you have 
mentioned, heavy oil, perhaps other energy resources? There is 
some now being provided, as you have testified before, by the 
Chinese, in substantial amounts. There has been some measure of 
nutrition, even going beyond that provided by the World Food 
Program of the U.N. and other humanitarian efforts, with a more 
substantial regularization of both aid and potential trade. Is 
this conceivably on the horizon as a strategy for the regime in 
North Korea, that they would be prepared ultimately, perhaps 
not this month or the next month, but down the trail, to move 
to that kind of framework?
    Mr. Kelly. Mr. Chairman, I think that is very much on the 
possible horizons. It is one of the strengths of the six-party 
talks that, as all of the parties take their individual 
positions, there is a unanimous agreement on the goal of 
denuclearization on the Korean Peninsula. In particular, the 
other colleagues, the four other countries involved, made clear 
to North Korea what these opportunities can be in the future. 
And other countries do too. In particular, the EU, the British, 
Australia, a host of other countries have joined us in seeking 
to persuade North Korea that its real security is best served 
by turning from nuclear weapons. But as I said, it is not clear 
that that choice has yet been made.
    The Chairman. What sort of possibilities could the British, 
the EU, and others outside the six offer? Do you know that they 
have been involved in talks or public proposals of any sort?
    Mr. Kelly. I think these are not so much in terms of public 
or specific proposals, but simply on the very low level of 
development assistance that has come. Over the last 10 years, 
there has been a considerable opening of North Korean contacts 
with European and other countries. That really did not exist at 
all 10 years ago, and also with South Korea and Japan. It is 
very clear, for example, with Prime Minister Koizumi's recent 
visit to North Korea, that he had serious concerns about 
abduction issues. But he made clear that the resolution of the 
nuclear issue was absolutely crucial to normalization of the 
relationship of Japan and the development of economic 
cooperation, which is a kind of code word for very substantial 
direct aid.
    The Chairman. Have the United States' relations with the 
Chinese continued to strengthen because of mutual interests in 
this area?
    Mr. Kelly. I will leave to others to judge whether our 
overall relationship has strengthened, although I think it is 
in pretty good shape. But China is always pursuing its own 
interests, and they rarely coincide exactly with those of ours. 
I think they share our determination that nuclear weapons have 
no role on the Korean Peninsula, but their pace and enthusiasm 
for pursuing the solution is not exactly the same as ours.
    The Chairman. I believe that at a previous hearing you 
testified that one of the byproducts of the six-party talks was 
considerable visitation among the other five, or among those 
that are in Asia, even beyond the six-party talks. They have 
been thinking about Asian security, about the fact that Asia 
has never had a NATO or some organization of formal character. 
Such might be useful and, in fact, necessary in the future. 
This is not the purpose of the six-party talks. It is to deal 
with the nuclear dilemma in North Korea. Can you comment any 
further upon what you perceive to be the development of our 
overall strategy for organization of security in Asia arising 
from these contacts?
    Mr. Kelly. The six-party talks are definitely a step 
forward. It is absolutely unprecedented to have any kind of a 
multilateral security dialog in Northeast Asia. In fact, the 
whole process is in its infancy, even though it is some 10, or 
I guess 11 years old now, that the ASEAN regional forum has 
proceeded. This in turn is giving a little more strength to the 
ASEAN regional forum as well. So we have got people talking to 
each other. We have very active participation within the six-
party talks of each of these parties, and each one of the 
parties has a very direct and national interest in a 
satisfactory outcome to this. So there are, I think, some 
possibilities for broadening it in the future, but for now the 
focus is on the nuclear weapons issue on the Korean Peninsula.
    The Chairman. Are there current indications of humanitarian 
crisis in North Korea beyond those that unfortunately are 
normal, namely a lot of very hungry people?
    Mr. Kelly. I would say that is about right, Mr. Chairman. 
There continue to be lots of hungry people. There have been 
economic changes. I would not go so far as to call them reforms 
in North Korea. These are creating new groups and new sets of 
winners and losers. It is not at all clear what that outcome is 
going to be, but there certainly are many people in need and a 
completely rusted-out industrial structure.
    The Chairman. Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    There is a security dialog going on, obviously, but it also 
seems to be bilateral. The North Koreans and the South Koreans 
have decided not to wait around, and the North and the Japanese 
have apparently decided not to wait for outcomes. I mean, they 
are bilateral. The Prime Minister of Japan has indicated he 
hopes to have normalization of relations--correct me if I am 
wrong--with North Korea within a year, if I am not mistaken. I 
think that is what I heard. And the South Koreans have stepped 
up considerably their effort to deal bilaterally with the North 
regardless of what we are doing. It seems that way anyway. That 
is the impression.
    So my question is, first of all, is the impression correct? 
And second, if it is, why is that occurring?
    Mr. Kelly. It is occurring because of the variety of 
contacts that have developed over the years. Yes, Prime 
Minister Koizumi hopes to begin the process of normalizing the 
relationship with Japan and North Korea.
    Senator Biden. He has begun that. Not he hopes to. He has 
begun that.
    Mr. Kelly. He has not begun it. He has made it clear that 
without resolution of the nuclear weapons issue, that it will 
not occur.
    Senator Biden. No, no, but my question is there is a 
question of beginning and ending. He has begun it. He said that 
in order to end it, he has to--the idea that it is static like 
our position has been, static--Korea you must do the following 
things before we do anything--that is not the position that has 
been taken by Tokyo.
    Mr. Kelly. Or the position by the United States, Senator.
    Senator Biden. It has not been our position?
    Mr. Kelly. It is not our position.
    Senator Biden. It has not been our position?
    Mr. Kelly. It has been erroneously reported. It has never 
been our position that North Korea has to do everything before 
we do anything.
    Senator Biden. No, I understand that. But it said they had 
to do a number of things. In the past, we made it pretty clear 
that there would be no action taken by us at all unless there 
were certain preconditions met by North Korea. Now your 
statement--and correct me if I am wrong. I may be wrong. It 
sounds as though that we are ready to phase in a negotiating 
structure that we were not prepared to do before. Or am I wrong 
about that?
    Is something different here? I guess what I am trying to 
get at here is it seems as though the atmosphere has changed. 
Is it because all of a sudden North Korea has had an epiphany, 
or is it because South Korea and Japan are worried you guys are 
taking them down a road they do not want to get on and they are 
going to go on their own path? I want to just be as blunt as we 
can here. What is the deal? What has happened? Has anything 
changed?
    Mr. Kelly. What has changed I think is that North Korea has 
come to accept that the six-party process is what is going to 
resolve the issue and that it is one that they cannot really 
escape. I think they recognize that dealing with the United 
States is not sufficient, that there are going to have to be 
arrangements with the other countries.
    I might add, Senator Biden, that the Japanese in particular 
and the South Koreans in particular have been completely 
steadfast as we would want our allies to be during the six-
party talks. The commitment to complete denuclearization of the 
Korean Peninsula is very solid with all of these things.
    Now, the bilateral discussion----
    Senator Biden. That has always been their position. Right?
    Mr. Kelly. Yes, sir, and it has not changed or weakened at 
all.
    What we have got is a much deeper and broader set of 
contacts with North Korea that very much serve to convince 
them, or we expect will serve to convince them, that their 
interests are in bringing this nuclear weapons issue, not to 
mention the other important issues, to a full resolution.
    Senator Biden. I want to talk about the other issues. In 
your testimony you included a long list of actions in addition 
to eliminating the nuclear weapons program that North Korea has 
to take to achieve ``a wholly transformed relationship with the 
United States, including issues relating to human rights, state 
sponsorship of terrorism, other WMD programs, missile 
proliferation, and conventional force disposition.'' Now, that 
might suggest--and I want to know whether it does--that even 
complete nuclear disarmament would not get North Korea much 
from the United States other than security assurances. It also 
seems a bit different from Dr. Rice's statement that ``North 
Korea will be surprised to see how much will be possible if it 
gives up its nuclear programs.''
    Have you spelled out to the North Koreans just what aspects 
of a transformed relationship can be expected from each of 
these steps in addition to the process laid out for disarmament 
of its nuclear program? In other words, where do diplomatic 
relations, Nunn-Lugar-type assistance, trade relations, 
economic assistance fit into the various cycles of improvement 
of all these outstanding issues?
    Because it seems to me you are--and I am not suggesting you 
should or should not, but you have moved the goalposts a little 
bit. Anybody listening to this hearing would assume we are 
talking about nuclear disarmament and their missile program. 
But we are back to where the President was at the outset, and 
it is consistent that at the very beginning he threw in its 
conventional forces. There had to be negotiation on that. Now 
is that a precondition for any significant change in our 
position that conventional forces, as the President said 2 
years ago, have to be moved out of range of Seoul and so on, 
the redisposition of the conventional forces? What is the deal 
here?
    Mr. Kelly. The deal is that the six-party talks are focused 
on the nuclear weapons issue. The full dimensions of a possible 
future relationship--and I very much agree with Dr. Rice's 
statement about the things that are potentially possible--
recognize that there are other serious issues that are going to 
have to be resolved. The nuclear weapons issue is the most 
immediate and, I would argue, the most serious individual 
issue. Ballistic missiles, conventional forces, human rights 
issues are of concern.
    Senator Biden. Do all of those have to be resolved for us 
to get to the point to give security assurances?
    Mr. Kelly. No, sir.
    Senator Biden. Now I got it. So I will conclude, Mr. 
Chairman.
    The U.S. proposal in Beijing--and this is what I am trying 
to figure out, whether it really represents any change at all. 
It seems as though it did. The Beijing proposal seems to 
represent a change from past practices. The administration, 
based on your testimony and what I think was said in Beijing at 
the last meeting, has accepted the notion that North Korea 
should be offered explicit incentives in exchange for a 
commitment for nuclear disarmament.
    Previously the administration has called that blackmail. 
Previously in testimony before this committee we were told 
flatly that any--any--offer of explicit incentives in return 
and exchange for disarmament constituted blackmail.
    Now, am I correct? Have there been explicit incentives laid 
on the table for the North Koreans that suggest they are 
available if they in fact commit to verifiable nuclear 
disarmament?
    Mr. Kelly. What we have done, Senator Biden, is to fill in 
the details of the framework that has really always been out 
there. There is a question about rewards for illegal and 
treaty-violating activity, and we certainly do not propose to 
offer such rewards. But we do----
    Senator Biden. Excuse me. What does that mean? I am 
confused what you mean. Is an incentive not a reward? Are you 
making a distinction between----
    Mr. Kelly. It means that we are not in negotiations 
multilaterally or bilaterally to offer sufficient money. When 
the former President of South Korea visited North Korea in June 
of the year 2000, it now turns out that payments well in excess 
of $100 million were made immediately before that and 
facilitated that process. The United States has no intent of 
joining with any such thing now or in the future.
    Senator Biden. Non-aggression is not a reward. Security 
assurance is not a reward. When you talk reward, you mean only 
money.
    Mr. Kelly. No. There can be other tangible parts of 
rewards. But incentives or benefits that recognize the change, 
particularly the multilateral context of this, makes that 
particularly useful. The United States may not offer tangible 
benefits, but our allies may see fit within their relationships 
to provide----
    Senator Biden. Security assurance is not a tangible 
benefit?
    Mr. Kelly. Security assurance is not a tangible benefit. A 
security assurance is a condition that would convince anyone 
that disarming is in their interest.
    Senator Biden. No, I got it. I am just trying to understand 
the vocabulary. There are revenue enhancements and tax 
increases. This is Washington. I am talking to the State 
Department. I have got to know the vocabulary, and I understand 
the vocabulary now. Thank you.
    The Chairman. Well, thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Secretary Kelly, welcome. Mr. DeTrani, thank you for 
appearing this morning.
    The first question. Do you believe the U.S. Presidential 
election has any influence or bearing on the willingness of 
North Korea to negotiate or come to any agreements?
    Mr. Kelly. It is not at all clear that this is the case, 
and in fact North Koreans have said that it is not. But who 
knows what they dream. What we have repeatedly told them--and I 
very much believe it--is that no American administration is 
going to accede to a nuclear-armed North Korea.
    Senator Hagel. Thank you.
    How big a part is human rights in the process? You have 
mentioned it a couple of times in your remarks in response to 
the previous questions. Centerpiece of negotiation, part of 
many dynamics? Where would you put human rights?
    Mr. Kelly. I would put human rights as part of the larger 
part of our future relationship with North Korea in the same 
category with other problems which would include ballistic 
missiles, conventional forces, other weapons of mass 
destruction. Human rights are a very important issue, but the 
principal and almost entire focus of the six-party talks has 
been on the nuclear weapons issue. So whether it be Japanese 
abductions or human rights issues, the list of terrorist 
states, these are items that we are going to have to address in 
great detail later on.
    Senator Hagel. How stable do you think Kim Jong-il's regime 
is?
    Mr. Kelly. I do not know, Senator Hagel, and I do not think 
anybody around here knows. It is obviously a lot more stable 
than many people thought 10 years ago, but it is a strange kind 
of stability in which the economy seems to get worse and worse, 
more and more hungry people, deaths continue, Koreans in 
considerable numbers seek to leave the place. But there is a 
unique authoritarian police state that exists there and it has 
so far managed to survive.
    Senator Hagel. What lessons do you think, if you think 
there are any lessons, that we can learn or apply from Iraq to 
our current dealings with North Korea?
    Mr. Kelly. Iraq is a very different situation. North Korea 
does not have the panoply of U.N. resolutions violated that 
Iraq had. It is in many ways as difficult or more difficult an 
intelligence target. It has, once again, a particular location 
in that South Korea, its 47 million people and some 13 million 
to 15 million people that live in the Seoul area are literally 
within artillery range of the demilitarized zone. So the stakes 
of possible combat and the potential for loss of life is in my 
view even greater than it was in Iraq.
    Senator Hagel. What lessons, if any, do you think the North 
Koreans have taken from the current situation in Iraq? Start 
with our invasion of Iraq. Do you think that has an effect on 
their negotiating position, how they see the world, how they 
see the United States?
    Mr. Kelly. It would just be speculation to say what they 
have done other than some rhetorical points that keep turning 
up in the propaganda one way or another. In particular, the 
North Koreans try to say that all their nuclear weapons 
aspirations have somehow sprung up over the last 2 or 3 years, 
and that simply is not the case.
    Senator Hagel. Do you see a role for the United Nations in 
the negotiations in North Korea? And the next follow-on 
question would be, is there a role anywhere in the near future 
in North Korea for the United Nations?
    Mr. Kelly. There could be and probably should be a role for 
the United Nations Security Council with respect to North 
Korea, although as long as the multilateral process is 
proceeding along, it is likely that China in particular will 
not be very interested in having the Security Council pursue 
it. It is obvious that there is great sensitivity in Pyongyang 
to United Nations involvement in that. So at the moment, the 
Security Council is seized of the matter, which means it has 
been sitting on it for a couple of years.
    Senator Hagel. You mentioned some of the conditions 
regarding North Korea's nuclear capacity and verification you 
have mentioned a couple of times obviously is a key component. 
Is it your sense that we, in fact, can design a verifiable 
monitoring regime for North Korea? I assume it is, and if you 
could elaborate on that.
    By the way, Mr. DeTrani, if you have any comments on this, 
you are welcome to join in.
    Mr. Kelly. I am going to ask Joe DeTrani to join me on this 
answer.
    The answer is, of course, yes, a verification regime can be 
developed. This is very much the task that the working group 
has before it. But key to this, once again, is this choice by 
the North Koreans to meaningfully turn away from nuclear 
weapons. A solution that has inspectors racing around that 
country trying to dig holes is not going to be the solution 
that we need. And in the end dismantlement and removal of the 
nuclear weapons program is going to be essential to its 
resolution.
    Senator Hagel. Well, that is obviously why I asked the 
question because you have just said it and we all understand 
it, and this is the real world. It seems to me this is a key 
component of anything, and it is probably the most difficult 
component. The reality of it is something I know you are 
dealing with, and Mr. DeTrani is going to amplify on your 
points.
    But I think the more we all can understand this and where 
we are going, it not only deals with an expectation dynamic--
that is part of, I think, our problem that we have today in 
Iraq--but expectations are important not only to the people who 
live there, but the guarantor of a country's security like we 
are right now in Iraq. What did we expect 15 months ago where 
we are today? Now is the time to lay that out as much as we can 
in our dealings with North Korea, which you know I know, Mr. 
Secretary.
    Mr. DeTrani.
    Mr. DeTrani. Sir, I just want to add something, Assistant 
Secretary Kelly, that that is part of what we do in the working 
group. We look at all the issues. Indeed, verification is a 
critical issue because there is so much we do not know about 
North Korea, and there has to be a commitment on their part to 
move toward denuclearization rather than, as Mr. Kelly 
indicated a few minutes ago, to have a covert uranium 
enrichment program. That is not the spirit. We would need 
cooperation on their part. We would need transparency on their 
part, and down the road we are looking at the IAEA and others 
who have a great deal of expertise in North Korea to 
participate in a process of that nature. But it would have to 
be a strategic decision taken by Kim Jong-il at the highest 
levels to commit to denuclearization and not to come up with, 
if you will, a covert program to ensure they have a nuclear 
card in the longer term.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Feingold.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank Chairman Lugar and Senator Biden for holding this important 
hearing, and I thank Assistant Secretary Kelly, Mr. DeTrani, and all of 
the private witnesses for being here today.
    It seems that every few months, we have another hearing focused on 
North Korea and the North Korean pursuit of nuclear weapons. Each 
hearing is a reminder of how serious this issue is. Each hearing is an 
opportunity. to reflect on North Korea's alarming history of 
proliferation. And as time passes between each hearing, North Korea has 
increasing opportunities to develop its nuclear weapons program, and 
potentially to provide nuclear know-how or technology to others. Yet, 
as time passes, it is not at all clear that the United States gains any 
particular negotiating leverage.
    What is fundamentally different about the situation in North Korea 
today as opposed to the situation in North Korea a year ago--besides 
the likelihood that the North Koreans now possess more nuclear weapons? 
North Korea's nuclear defiance is an urgent national security issue. 
But since October of 2002, the administration has failed to effectively 
address this problem, and I believe has failed to make this issue the 
priority that it should be. I hope that the last round of talks created 
some new momentum, but given the gravity of the situation before us and 
the amount of time that has passed, I am not satisfied with the faint 
wisps of fragile hope to be found in the latest rhetoric. I am 
interested in concrete progress that advances our security.

    Senator Feingold. Thank you, Mr. Chairman. Good to see you 
again, Secretary Kelly.
    We have been dealing with this aspect of this issue for 
over a year and a half now. I wonder if you could just say a 
little bit about what good time does for us. Is it not the case 
that as time passes, North Korea could be adding to its nuclear 
arsenal? And what do you see as any additional leverage that 
the United States gains as time passes?
    Mr. Kelly. Time is certainly a valid factor in this. 
Obviously, it would be better to reach an agreement sooner. We 
do not know the details, but it is quite possible that North 
Korea is proceeding along developing additional fissionable 
material and possibly additional nuclear weapons. The idea is 
that we have to have an agreement that in fact really ends this 
program, and that is the challenge of peaceful solutions 
through diplomatic means.
    Senator Feingold. Are you confident that North Korea cannot 
transfer nuclear capacity or know-how to other actors while we 
wait for the next round of talks, Mr. Secretary? On what would 
you base that confidence?
    Mr. Kelly. I do not have any such confidence. I would note 
that after a remark of April 2003 by a North Korean 
interlocutor that it might be possible for them to transfer 
nuclear material or weapons, that they have gone quite the 
other direction and, in fact, in response to specific 
questions, have repeatedly stated that they would not transfer 
nuclear weapons or fissionable material to any other 
destination outside of their country. But that assurance, like 
all the assurances from North Korea, has, unfortunately, not an 
unlimited value.
    Senator Feingold. I assume that part of the North Korean 
strategy at these talks is to drive a wedge between other 
parties at the talks. How do they try to do this? Have they had 
any success at it? You could interpret the bilateral efforts of 
South Korea and Japan to suggest that they may have had some 
success in this regard. Could you comment on that?
    Mr. Kelly. Senator Feingold, I do not see the bilateral 
efforts that Japan and North Korea have and that South Korea 
and North Korea have as undercutting our efforts in any 
respect. I see them as enhancing our efforts. This is something 
that did not exist at all 10 years ago, and I think it very 
much puts us in a broader dimension of how to do it.
    Yes, sir, there have been some attempts, particularly in I 
think the first round of the six-party talks, but they have not 
worked. The fact is if there was any change in atmosphere in 
the talks, it was because the self-isolation that was so 
obvious in the first two rounds of the six-party talks was 
something that North Korea was trying to avoid, but they really 
could not entirely avoid it.
    Senator Feingold. Thank you.
    Finally, how do North Korean officials react when human 
rights issues are raised, if you would characterize their 
reaction to discussion of these issues for me?
    Mr. Kelly. They refuse to discuss them. Because our focus 
in these particular talks is on the nuclear weapons issue, we 
have not pressed the issue beyond that.
    Senator Feingold. Thank you for your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, and welcome to the 
witnesses.
    Maybe I will ask Mr. DeTrani since he has not had a chance 
to weigh in here much.
    Secretary Kelly said in his prepared statement that the 
proposal the United States presented was developed in close 
coordination with the Republic of Korea and Japan. So it begs 
the question, why not in close coordination with Russia and the 
PRC?
    Mr. DeTrani. Sir, certainly Russia and the PRC were 
consulted on the proposal that the United States presented at 
the last round. We have had very intense discussions with the 
Republic of Korea and with the Government of Japan all along, 
certainly with the People's Republic of China and the Russian 
Federation also.
    So let me say I think we could categorize it that way 
because the Republic of Korea has been very forthcoming in 
proposing things. They have actually put proposals in front of 
us where they have said, we would like to move on it. They have 
been a bit more proactive in saying we need to put something on 
the table and being very definitive. The same for the 
Government of Japan. It does not mean, however, sir, that the 
People's Republic of China and the Russian Federation have not 
been forward-leaning. It is just that we have had more concrete 
proposals by both those governments which fit in very nicely 
with our game plan where we wanted to present a road map. 
Knowing that North Korea is moving toward economic reforms, 
knowing that they are looking for, if you will, international 
legitimacy, we thought this was the time to pull all the pieces 
together.
    Senator Chafee. The meetings, of course, are being held in 
Beijing. How important is China to our success here?
    Mr. DeTrani. Extremely important, sir. Extremely important. 
China is in many ways the key to success. They have a very, 
very close working relationship with the Democratic People's 
Republic of Korea. As we speak, their Minister of Defense is 
visiting in Beijing. They have had high-level visits going back 
and forth, Kim Jong-il into Beijing, and they have had senior 
Chinese officials into Pyongyang. So China is very critical and 
they have been facilitating the six-party process in a very 
effective way, sir.
    We continue to ask for more assistance. We continue to ask 
the People's Republic of China to better convince the DPRK that 
they need to be more forthcoming in these talks. The 
relationship is close with the PRC.
    Senator Chafee. My experience in dealing with officials 
from the PRC is that the top priority for them is cross-strait 
relations and certainly the sale of arms to Taiwan. About the 
same time these talks were going on, Condoleezza Rice was over 
there saying the United States will continue to sell arms to 
Taiwan. As you look at our efforts to denuclearize North Korea, 
to have this dynamic injected--and you just said that China is 
key. So by virtue of that word, we are not going to have 
success without their cooperation. At the same time, we are 
kind of battling over this issue. But I will ask Mr. DeTrani. I 
would like to have you answer.
    Mr. DeTrani. Sir, I am going to ask Assistant Secretary 
Kelly. But my quick response to that would be in all the 
discussions I have had with the PRC and Jim Kelly in all our 
meetings, Taiwan has never been mentioned in any of our 
discussions as we work the North Korea issue. But I will look 
to Assistant Secretary Kelly to elaborate.
    Mr. Kelly. That is a big issue in the full bilateral 
relationship, but when it comes to the six-party talks, the 
Chinese are not posing that as a tactical issue in any respect.
    I would also add, sir, that we consult very closely with 
China and Russia, but we have a 50-year alliance with the 
Republic of Korea and with Japan. We have a longstanding 
practice of consulting with them on scores, if not hundreds, of 
issues. That is really why the proposal was more carefully 
developed with them.
    Senator Chafee. I myself just think it is hard to believe 
that knowing how strongly they feel about this, that it is not 
a factor. At the same time we are asking for their cooperation, 
we are not listening to them on this issue. But you have a 
different point of view and I respect that.
    Mr. Kelly. We are listening to them, Senator Chafee.
    Senator Chafee. On the sale of arms to Taiwan?
    Mr. Kelly. Oh. Well, sir, we have something called the 
Taiwan Relations Act since 1979 that requires the U.S. 
Government to provide, after its own assessment, necessary 
defensive arms to Taiwan. Our relationship with China is based 
on the three joint communiques and on the Taiwan Relations Act 
which is the U.S. law.
    Senator Chafee. Well, thank you. I will switch gears a 
little bit.
    You said that we are going to, in return for the 
denuclearization, do three things: provide for some 
multilateral security assurances, begin a study to determine 
the energy requirements and to meet them by non-nuclear energy 
programs, and begin discussions of steps to lift the economic 
sanctions. In the middle of those three, what specifically can 
we talk to them about on their energy needs? Help them build 
dams? Get natural gas from Russia? What specifically non-
nuclear energy can we offer them?
    Mr. Kelly. North Korea has a huge energy insufficiency and 
problem, and it is operating in every respect. It is operating, 
for example, Senator, with a grid that was put up by the 
Japanese in the early part of the last century.
    The light water reactor project that is now in full 
suspension but that was a part of the Agreed Framework, among 
its many anomalies is there was no way to connect the reactors, 
if they had ever been completed, with the rest of North Korea. 
So there are many non-nuclear aspects, ranging all the way from 
wind power to Russian or other natural gas to South Korean 
support for other kinds of non-nuclear power generation. There 
is a very broad panoply, and it has not been adequately studied 
and I think it would be helpful if that occurred.
    Senator Chafee. Mr. DeTrani, have we gotten far enough to 
think about what specifically we could help them with in their 
non-nuclear energy needs?
    Mr. DeTrani. Sir, we have discussed this in the working 
group sessions. We get into these various issues. So we have 
talked about natural gas, coal-fired plants, et cetera as 
opportunities ahead for them. I think the North Koreans see it 
in that light.
    Senator Chafee. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Kelly, are you ready to put economic assistance on the 
table to get rid of their nukes?
    Mr. Kelly. No, sir.
    Senator Nelson. Tell me why.
    Mr. Kelly. We should not give in to a pricing contest, and 
moreover, this is a global concern and this has got to be 
resolved in a multilateral way, and a unilateral U.S. bid is 
simply going to result in other bids and then an inability to 
check the results.
    Senator Nelson. That could certainly be done 
multilaterally.
    Mr. Kelly. Economic assistance from many different sources 
is absolutely in prospect. That is what Dr. Rice was referring 
to, I believe, when she said that they would be surprised at 
all the things that would occur. From the discussions I have 
had with people all around the world, the world loves a 
reformed sinner, and there would be many who would be receptive 
to helping North Korea's development if it turns away from 
nuclear weapons and perhaps some of its other activities as 
well.
    Senator Nelson. Well, sometimes the sinner can be 
encouraged more to reform if there are the incentives that you 
are talking about. Economic assistance is one of those. Energy 
supplies are another. Clearly the Chinese have an opportunity 
to be part of that multilateral effort in either extending or 
withholding their energy supplies. I recall they cut them off 
there for about 3 days running at one point to underscore a 
point.
    What do you think about the Chinese? You used the words 
``the pace and enthusiasm of China is lacking.'' Tell us about 
that.
    Mr. Kelly. I did not say it is lacking. I think I meant 
that it is different from our own. China wants North Korea to 
end its nuclear weapons program, but it also wants a stable 
situation on the Korean Peninsula. So it tends in the direction 
of positive incentives, and it is not yet clear whether 
positive incentives will work.
    Senator Nelson. Well, we have let all of these negotiations 
drag out. I understand and commend you for everything that you 
are doing, and your poker face is probably excellent as you 
deal with the Chinese.
    But let me ask you, what should we do? How are you going to 
respond if North Korea tests a nuclear weapon or a new long-
range ballistic missile?
    Mr. Kelly. The United States would respond with its allies, 
as has been the case for all these years. Our alliances with 
Japan and North Korea have to do with the possibility of 
hostilities. A nuclear test would certainly be a remarkable 
development in northeast Asian security, and I do not think I 
could or should speculate on exactly what the United States 
would do. But I know there would be a very strong reaction from 
all of the countries involved in the six-party talks, for sure, 
including China were such a thing to occur.
    A long-range ballistic missile test is something that the 
North Koreans have even again recently pledged to the Japanese 
that they would not do. So this also would be a very 
significant development if it were to occur.
    Senator Nelson. Well, as you project to the future, how 
long are we going to continue to allow North Korea to develop 
nuclear weapons?
    Mr. Kelly. We do not allow North Korea to develop nuclear 
weapons, Senator Nelson.
    Senator Nelson. Well, they are developing them.
    Mr. Kelly. And the day is never going to come, I very much 
hope, and it will certainly never come in this administration 
that we will accept or accede to North Korea as a nuclear 
weapon state. I know that Japan and the Republic of Korea have 
the very same view.
    Senator Nelson. Of course, it is the policy of the United 
States that we do not allow North Korea to develop nuclear 
weapons, but by the delays that have occurred, they are 
developing nuclear weapons.
    Well, let me just conclude with this, Mr. Chairman. When do 
you think it would be appropriate to take North Korea's 
defiance of the international protocols, the resolutions, and 
the laws to the Security Council?
    Mr. Kelly. As I mentioned earlier, Senator, it would be 
appropriate for it to go to the Security Council now. The 
International Atomic Energy Agency made a report to the 
Security Council at the time in 2003 when the DPRK withdrew 
from the NPT. There is not a consensus in the Security Council, 
however, to bring it at this time, but that could occur at any 
moment when other countries than just the U.S.--it is not 
within our power to bring items to the Security Council only 
because we wish it.
    Senator Nelson. In a couple of weeks, I expect to be with a 
delegation meeting with President Hu in Beijing. What would you 
like me to ask him?
    Mr. Kelly. I think that you can simply ask him to explain 
to you and to other Senators in his own way what China's views 
are on this. Dr. Rice was in China last week, I think spoke 
with President Hu about this very issue. I think you and the 
other Senators will find China's views very interesting, 
especially after they finish the Taiwan lecture that they will 
give you.
    Senator Nelson. I have heard that several times.
    Mr. Kelly. You will hear it again, sir, I am afraid.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, and thank you 
for holding this hearing and for your focus on North Korea.
    Secretary Kelly, welcome. I appreciate all your great work 
in this area. I really appreciate what the administration is 
doing in holding a light up on what is happening in North Korea 
and not just taking kind of an easy answer, let us put a band 
aid on this and let us move on, because we have done that 
before and it has failed and it has been a great problem. So I 
appreciate the difficulty of what you are doing and I 
appreciate you are attempting to get real answers in this.
    I do, though, want to raise a series of questions about who 
we are dealing with in Kim Jong-il and this regime and what we 
know. You know this regime very well. You have been more 
successful than anybody about getting truth out of them, to 
admit things that we have alleged for years and that they have 
said.
    It is a terrorist state by our own definition. It is a 
charter member of the ``axis of evil'' by our definition. By 
the numbers I have, they have killed about 10 percent of their 
own population over the last 10 years through starvation, 
deprivation, about 2 million of a 22 million population, a 
little under 10 percent. If you have different figures on any 
of this, correct me as we go through it.
    They operate a gulag system. For that, Mr. Chairman, I 
would like to enter into the record at this point the summary 
of a report on David Hawk's `The Hidden Gulag, Exposing North 
Korea's Prison Camps,'' which I know the Secretary is familiar 
with.
    The Chairman. It will be included in the hearing record.
    [The summary referred to follows:]

                            The Hidden Gulag

                  exposing north korea's prison camps

      (David Hawk, U.S. Committee for Human Rights in North Korea)

    [Following is the Executive Summary of the full report that was 
                       released October 22, 2003]

                           executive summary
    This report describes a number of penal institutions in the 
Democratic People's Republic of Korea (DPRK) administered by two 
different North Korean police agencies: the In-min-bo-an-seong 
(People's Safety Agency) \1\ and the more political Kuk-ga-bo-wi-bu 
(National Security Agency). The report outlines two distinct systems of 
repression: first, a North Korean gulag \2\ of forced-labor colonies, 
camps, and prisons where scores of thousands of prisoners--some 
political, some convicted felons--are worked, many to their deaths, in 
mining, logging, farming, and industrial enterprises, often in remote 
valleys located in the mountainous areas of North Korea; and second, a 
system of smaller, shorter-term detention facilities along the North 
Korea-China border used to brutally punish North Koreans who flee to 
China--usually in search of food during the North Korean famine crisis 
of the middle to late 1990s--but are arrested by Chinese police and 
forcibly repatriated to the DPRK.
---------------------------------------------------------------------------
    \1\ Before 1998, called the Sa-hoe-an-jeon-bu (Social Safety 
Agency).
    \2\ A Russian-language acronym for Glavnoe Upravlenie Lagerei, the 
``general administration of [slave labor] camps.''
---------------------------------------------------------------------------
    Both police agencies above are involved with both repressive 
systems detailed and categorized in the following pages. And both 
systems involve extreme phenomena of repression that, to the 
researcher's knowledge, are unique to North Korea: guilt-by-
association, lifetime sentences of hard labor for three generations of 
individuals related to the purged political prisoners who are sent to 
the gulag with no judicial process whatsoever; and forced abortions for 
detained North Korean pregnant women forcibly repatriated from China or 
the murder of their newborn infants.
    Introduction. The introduction of this report outlines the 
methodology, sources, and information-base used in creating the report 
and contains a glossary of terms related to North Korean repression.
    Part One. Part One of this report begins by describing the 
phenomena of repression associated with the North Korean kwan-li-so, 
most descriptively translated as ``political penal-labor colonies.'' In 
the kwan-li-so, tens of thousands of political prisoners--along with up 
to three generations of their families--are banished and imprisoned 
without any judicial process for usually lifetime sentences. Their 
sentences entail slave labor in mining, logging, and farming 
enterprises in the valleys of mountainous areas in north and north-
central North Korea. The kwan-li-so are described as colonies because 
they are sprawling encampments, twenty or more miles long and ten to 
twenty miles wide, containing multiple, enclosed, self-contained 
sections, or ``villages,'' for different categories of prisoners. Some 
of the sections are for the political prisoners; others are for the 
families of the presumed political offenders, so that purged political 
prisoners have no contact with their imprisoned parents, grandparents, 
or children.
    The existence of the political forced-labor camps is denied by the 
DPRK. Part One of this report also describes how the outside world has 
come to know about these political penal-labor colonies, and what is 
known about who the prisoners are.
    One of the kwan-li-so, No. 15, at Yodok in South Hamgyong Province, 
is unique in that it has a re-education section, from which small 
numbers of prisoners can be released. At least four such prisoners have 
been released from Yodok, fled North Korea, and were interviewed for 
this report. They are profiled, along with a description of Kwan-li-so 
No. 15 drawn from their accounts. Only one former prisoner is known to 
have escaped from the kwan-li-so. He is profiled along with his account 
of No. 14 and No. 18, where he was imprisoned. A former guard at 
several kwan-li-so defected to South Korea. His story is told along 
with his description of Kwan-li-so No. 22. With the exception of Kwan-
li-so No. 18, the political penal-labor colonies are administered by 
the Kuk-ga-bo-wi-bu (National Security Agency).
    Formerly there had been a dozen kwan-li-so, but these have been 
consolidated into six or seven colonies. This consolidation and what is 
known about the closed camps is briefly described. Within the last 
several months, commercial satellite photographs of several kwan-li-so 
have become available. Several such photographs are contained in this 
report, with specific buildings identified by the former prisoners.
    Part One of this report goes on to describe the second component of 
the North Korean gulag: a series of smaller penal-labor camps and 
penitentiary-like institutions called kyo-hwa-so. In the kyo-hwa-so, as 
in the kwan-li-so, prisoners are compelled to perform hard labor--
virtually slave labor--under dreadfully harsh conditions, in mining, 
logging, textile manufacturing, or other industrial projects, such as 
brick- or cement-making. However, these prisoners are subjected to a 
judicial process and given fixed-term sentences according to the DPRK 
criminal code, after which they can be released. The kyo-hwa-so are 
administered by the In-min-bo-an-seong (People's Safety Agency).
    The majority of kyo-hwa-so prisoners are imprisoned because they 
have been convicted of what would be in any society felony crimes. But 
some prisoners are ``political'' in that they are convicted for actions 
that would not be normally criminalized: one woman interviewed for this 
report, for example, described being convicted of disturbing the 
``socialist order'' for singing, in a private home, a South Korean pop 
song.
    A major phenomenon of repression associated with the kyo-hwa-so is 
the shockingly large number of deaths in detention from slave labor 
under dangerous circumstances and from starvation-level food rations. 
Former prisoners interviewed for this report explain that many of their 
fellow captives did not expect to survive long enough to complete their 
sentences--and that thousands of them did not survive. States, of 
course, have the right to deprive duly convicted criminals of liberty 
and remove them from society. States do not have the right to deprive 
prisoners of their right to food, or to work them, literally, to death. 
Eight former kyo-hwa-so prisoners were interviewed for this report. 
Their stories, and their accounts of seven different prison-labor 
camps, are described in Part One.
    Part Two. Part Two of this report describes a series of detention 
facilities, administered by North Korean police forces, that are 
located in areas along the North Korea-China border and used to 
interrogate and punish North Koreans forcibly repatriated from China. 
These facilities are called ka-mok (police-station jails) or ku-ryu-
jang (detention-interrogation facilities, typically inside a police 
station). The two types of penal-labor facilities in this system are 
called ro-dong-dan-ryeon-dae (labor-training camps) and jip-kyul-so 
(detention/forced-labor centers). Provincial jip-kyul-so are referred 
to as do-jip-kyul-so.
    The jip-kyul-so detention centers are facilities where both 
repatriated North Koreans and low- or misdemeanor-level criminals are 
held for up to six months of hard labor, for example brick-making or 
local construction projects. It should be noted that many technically 
illegal misdemeanor offenses are famine-motivated, for example taking 
food from state storehouses or state farm fields; not showing up at 
one's assigned workplace (when the North Korean production-distribution 
system broke down and enterprises were no longer in production or 
paying wages, many workers stopped going to their assigned jobs); 
unauthorized private enterprise; unauthorized trading or economic 
activity; leaving one's assigned village without authorization; or 
leaving the country without authorization.
    The ro-dong-dan-ryeon-dae labor-training camps are even shorter-
term, more localized detention/forced-labor facilities. One former 
detainee stated that, unlike the jip-kyul-so detention centers and the 
kyo-hwa-so prison-labor facilities, the ro-dong-dan-ryeon-dae do not 
appear in the North Korean statute books. Rather, they are ad hoc 
measures initiated by local authorities to cope with the overflow of 
famine-related misdemeanor arrestees. Another former detainee mentioned 
that all inmates in one labor-training camp were former repatriates who 
were being isolated from the common-crime detainees in the provincial 
detention center, so that the repatriated detainees could not tell the 
common-crime detainees about the prosperity and personal freedoms 
available in China.
    When first repatriated from China, North Koreans are questioned in 
the police jails and detention facilities about why they went to China, 
what they did there, and when. More ominous questions follow, revolving 
around whether the individual being questioned had any contact with 
South Koreans while in China, which is deemed a political offense. 
(Many North Koreans do have contact with South Koreans there, as this 
part of northeast China, formerly known as Manchuria, is frequented by 
South Korean businessmen, students, tourists, missionaries, and refugee 
and humanitarian aid workers.) Fearing transfer to a kwan-li-so or kyo-
hwa-so,\3\ or even execution, repatriated North Koreans typically deny 
having had any contact with South Koreans or exposure to South Korean 
radio stations, television programs, movies, or music while in China. 
But such denials often are not deemed credible by the North Korean 
police, who literally attempt to beat the truth out of the repatriated 
detainees. When the police are satisfied, the repatriates are 
transferred to the jip-kyul-so police detention centers or ro-dong-dan-
ryeon-dae labor-training camps. This report tells the stories of nine 
North Koreans forcibly repatriated from China, and the police 
interrogations, detentions, and mistreatments these Koreans were 
subjected to upon repatriation.
---------------------------------------------------------------------------
    \3\ Three former repatriated persons interviewed for this report 
were so transferred.
---------------------------------------------------------------------------
    Two phenomena of extreme repression are associated with the 
treatments meted out to repatriated Koreans. First, the jip-kyul-so, 
despite the shortness of sentences served there, are characterized by 
very high levels of deaths in detention from inadequate food combined 
with excessively hard labor--most seriously affecting those detainees 
lacking nearby relatives to bring them extra food. (Many detainees, 
when they become too emaciated or sick to perform hard labor, are given 
sick-leave or release so that they can recover or die at home, reducing 
the number of deaths in detention.) Second, in at least three places of 
detention along the North Korea-China border cited by persons 
interviewed for this report, North Korean women who were pregnant when 
repatriated were subsequently subjected to forced abortions, or if the 
pregnancy was too advanced, were allowed to deliver their babies only 
to have them killed immediately after birth (based on the possibility 
that the Korean women had been impregnated by Han Chinese men).
    Part Three. Most of the prisoners and detainees interviewed for 
this report were tortured, many horribly and repeatedly. Part Three of 
this report summarizes the methods of torture endured or witnessed by 
the former prisoners and detainees interviewed. It also summarizes the 
testimony of eight former detainees who themselves witnessed or have 
firsthand knowledge of forced abortions and ethnic infanticide.
    Part Four. The concluding section of this report, Part Four, makes 
various recommendations to the DRPK, to China and South Korea, as North 
Korea's closest neighbors, and to other U.N. Member States in the 
international community. In regards to the last, this report includes 
recommendations that all intergovernmental contact with North Korea 
should include discussion of improvements of human rights conditions. 
Further, it makes the case for incorporating human rights conditions in 
any comprehensive approach to the multiple crises that North Korea 
faces with nearby and other states--security-related, political-
diplomatic, and humanitarian.
    Specifically, any security and cooperation agreement for the Korean 
peninsula should require that all parties, including North Korea, 
demonstrate respect for human rights, including the rights of refugees 
who have fled North Korea, encourage human contact, promote the 
reunification of families, and provide for the free flow of 
information. Additionally, verified improvements in North Korea's human 
rights situation should be included in any comprehensive approach to 
the Korean crises involving foreign aid to or investment in North 
Korea. Any multilateral or bilateral arrangements involving foreign 
investment in extraction or production enterprises in North Korea for 
export to world markets should preclude the utilization of forced, 
slave, or prison labor, or the evolution of a situation where 
privileged workers in exclusive export zones produce for world markets, 
while production for domestic consumption is based on prison, forced, 
and slave labor.

    Senator Brownback. I also would like to include in the 
record an article by Anne Applebaum, who is an authority on 
gulags, about ``Auschwitz Under Our Noses,'' where she talks 
about the gulag system in North Korea being very akin to Nazi 
Germany's gulag system.
    The Chairman. That will be included.
    [The article referred to follows:]

                [From The Washington Post--Feb. 4, 2004]

                       Auschwitz Under Our Noses

                          (By Anne Applebaum)

    Nearly 60 years ago last week, Auschwitz was liberated. On Jan. 27, 
1945, four Russian soldiers rode into the camp. They seemed 
``wonderfully concrete and real,'' remembered Primo Levi, one of the 
prisoners, ``perched on their enormous horses, between the gray of the 
snow and the gray of the sky.'' But they did not smile, nor did they 
greet the starving men and women. Levi thought he knew why: They felt 
``the shame that a just man experiences at another man's crime, the 
feeling of guilt that such a crime should exist.''
    Nowadays, it seems impossible to understand why so few people, at 
the time of the Auschwitz liberation, even knew that the camp existed. 
It seems even harder to explain why those who did know did nothing. In 
recent years a plethora of respectable institutions--the Vatican, the 
U.S. government, the international Jewish community, the Allied 
commanders--have all been accused of ``allowing'' the Holocaust to 
occur, through ignorance or ill will or fear, or simply because there 
were other priorities, such as fighting the war.
    We shake our heads self-righteously, certain that if we'd been 
there, liberation would have come earlier--all the while failing to see 
that the present is no different. Quite a lot has changed in 60 years, 
but the ways in which information about crimes against humanity can 
simultaneously be ``known'' and not known hasn't changed at all. Nor 
have other interests and other priorities ceased to distract people 
from the feelings of shame and guilt they would certainly feel, if only 
they focused on them.
    Look, for example, at the international reaction to a documentary, 
aired last Sunday night on the BBC. It described atrocities committed 
in the concentration camps of contemporary North Korea, where, it was 
alleged, chemical weapons are tested on prisoners. Central to the film 
was the testimony of Kwon Hyuk, a former administrator at a North 
Korean camp. ``I witnessed a whole family being tested on suffocating 
gas and dying in the gas chamber,'' he said. ``The parents, son and a 
daughter. The parents were vomiting and dying, but till the very last 
moment they tried to save the kids by doing mouth-to-mouth breathing.'' 
The documentary also included testimony from a former prisoner, who 
says she saw 50 women die after being deliberately fed poison. And it 
included documents smuggled out of the country that seemed to sentence 
a prisoner to a camp ``for the purpose of human experimentation.''
    But the documentary was only a piece of journalism. Do we really 
know that it is true? We don't. It was aired on the BBC, after all, an 
organization whose journalistic standards have recently been 
questioned. It was based on witness testimony, which is notoriously 
unreliable. All kinds of people might have had an interest in making 
the film more sensational, including journalists (good for their 
careers) or North Korean defectors (good for their cause).
    The veracity of the information has been further undermined by the 
absence of official confirmation. The South Korean government, which 
believes that appeasement of the North will lead to reunification, has 
already voiced skepticism about the claims: ``We will need to 
investigate,'' a spokesman said. The U.S. government has other business 
on the Korean Peninsula too. On Monday Secretary of State Colin L. 
Powell told a group of Post journalists that he feels optimistic about 
the prospect of a new round of nuclear talks between North Korea and 
its neighbors. He didn't mention the gas chambers, even whether he's 
heard about them.
    In the days since the documentary aired, few other news 
organizations have picked up the story either. There are other 
priorities: the president's budget, ricin in the Senate office 
building, David Kay's testimony, a murder of a high school student, 
Super Tuesday, Janet Jackson. With the possible exception of the last, 
these are all genuinely important subjects. They are issues people care 
deeply about. North Korea is far away and, quite frankly, it doesn't 
seem there's a lot we can do about it.
    Later--in 10 years, or in 60--it will surely turn out that quite a 
lot was known in 2004 about the camps of North Korea. It will turn out 
that information collected by various human rights groups, South Korean 
churches, oddball journalists and spies added up to a damning and 
largely accurate picture of an evil regime. It will also turn out that 
there were things that could have been done, approaches the South 
Korean government might have made, diplomatic channels the U.S. 
government might have opened, pressure the Chinese might have applied.
    Historians in Asia, Europe and here will finger various 
institutions, just as we do now, and demand they justify their past 
actions. And no one will be able to understand how it was possible that 
we knew of the existence of the gas chambers but failed to act.

    Senator Brownback. You know people that have come out and I 
know you have met with some that have come out of the gulag 
system, as I have. We think there are somewhere around 150,000-
200,000 people in the North Korean gulag system. They operate 
that type of horrific system.
    They have lied or at least misled us in incredible ways on 
nuclear negotiations in the past. The 1994 agreement--I believe 
quoting Secretary Powell, ``the ink was not even dry and they 
were looking for other sources of nuclear material.'' I have 
that from one of the top defectors that came out, and I believe 
it is in the public knowledge or realm at this point in time. 
So this is not a trustworthy regime to negotiate with on 
nuclear issues given past performance in the 1994 signed 
agreement.
    They are arms merchants for virtually every evil regime in 
the world.
    They are drug runners as a government. I held a hearing on 
that.
    Counterfeiting money, other items, a number of places, U.S. 
currency.
    Human traffickers. I have got the State Department 
Trafficking in Persons report of June 2004, and Mr. Chairman, I 
would like for this to be entered into the record, the page on 
North Korea. Just to read it very briefly, if I could. ``Source 
country for persons trafficked for the purpose of forced labor 
and sexual exploitation. The DPRK operates forced labor prison 
camps to punish criminals and repatriated North Koreans. 
Imposes slave-like labor conditions on its prisoners.'' This is 
a State Department document.
    [The page of the report referred to follows:]

                          NORTH KOREA (TIER 3)

    The Democratic People's Republic of Korea (D.P.R.K.) is a source 
country for persons trafficked for the purposes of forced labor and 
sexual exploitation. The D.P.R.K. operates forced-labor prison camps to 
punish criminals and repatriated North Koreans. Thousands of North 
Korean men, women, and children are forced to work and often perish 
under conditions of slavery. Many nations provide humanitarian 
assistance and food to the North Korean people, but deteriorating 
economic conditions continue to pressure thousands into fleeing to 
China, Russia, and Mongolia. The North Koreans' illegal status in other 
nations increases their vulnerability to trafficking schemes and sexual 
and physical abuse.
    The Government of North Korea does not fully comply with the 
minimum standards for the elimination of trafficking and is not making 
efforts to do so. The government does not recognize trafficking as a 
problem and imposes slave-like labor conditions on its prisoners.
Prosecution
    There are no reports that the D.P.R.K. prosecutes traffickers.
Protection
    The Government of North Korea makes no effort to protect 
trafficking victims.
Prevention
    There are no reports of any government anti-trafficking efforts.

    Senator Brownback. Kidnapers in Japan. Maybe they are 
starting to get those cleared up.
    Chemical weapons tests on prisoners. Now, this is only 
according to the BBC and several other documents coming out. So 
in my estimation, it has not risen to the level of proof yet, 
but I quote here from this Anne Applebaum story of a former 
administrator of a North Korean camp. `` `I witnessed a whole 
family being tested on suffocating gas and dying in a gas 
chamber,' he said. `The parents, son and a daughter. The 
parents were vomiting and dying, but till the very last moment 
they tried to save the kids by doing mouth-to-mouth breathing.' 
'' Chemical testing on their own people.
    They are, as I stated at the outset, a charter member of 
the ``axis of evil.'' This is Kim Jong-il's regime that we are 
negotiating with.
    Can you really negotiate with this group? We have this 
track record of what they have or are doing.
    Mr. Kelly. There is no way to put a good face on the DPRK 
and there is nothing you said, Senator Brownback, that I have 
any evidence to deny. To the best of my knowledge, everything 
you said there, or at least the vast majority of it, is 
absolutely unchallenged and widely known.
    Can we negotiate with them? We do not intend to negotiate 
with North Korea ourselves. We believe that the multilateral 
process, that the international community is very much involved 
in this, and that is why we want the six-party talks or other 
international fora to take that lead.
    With that said, is it possible for us to be a party to any 
negotiations? The answer, sir, is that it is. I had the honor 
to work for the late President Reagan and he put it best: 
``Trust but verify.'' If there is the verification, if there is 
a dismantlement, even then we may not be 100 percent sure, but 
I certainly would feel much more comfortable if the kind of 
quantities, that I believe are there, of nuclear materials were 
removed from North Korea.
    Senator Brownback. And I would too.
    But let me finish on this point. With all these human 
rights abuses at the extraordinary level, comparing their gulag 
with Hitler's concentration camps, tier 3 trafficking, chemical 
weapons tests on their own people, 10 percent of their 
population dying in the last 10 years, if we provide resources 
from here for something in North Korea in exchange for their 
dropping of nuclear weapons, completely verified nuclear 
weapons dropping, we see it, we take it out of the country or 
the Chinese, with us watching, take it actually physically out, 
it is dismantled, and you are still giving money to a country 
operating a gulag, operating trafficking, operating chemical 
weapons tests on its own people?
    That is the heart of the North Korea Freedom Act that we 
have put forward that I have talked with you about is that I 
cannot in good conscience say, we are going to fund something 
in here, and recognize we will get a verifiable nuclear weapons 
removal, when all the rest of this is going on. And we know it 
is going on and it is right there in front of our eyes and we 
just cannot deny it.
    I really would plead with you that you tell the North 
Koreans that Congress is requiring you to put the human rights 
issues in this portfolio. I know they do not want to talk about 
it. I would not want to talk about it if I were Kim Jong-il or 
anybody in his regime, given their track record. But this is 
horrific.
    I have spoken to you privately about that and I will 
continue to do so. I really hope that we can put that issue in 
there rather than us saying we will fund this for the nuclear 
weapons, given the level of other things that are going on in 
that regime.
    Mr. Kelly. Senator, we are not seeking funds and we have no 
plans to provide funds. The one possible exception might be the 
Nunn-Lugar money precisely for dismantlement of nuclear 
weapons. But we are not seeking funding. We are not looking to 
bribe North Korea to end its nuclear weapons state. We see this 
as a very important objective, but then we have made clear that 
the normalization of our relations would have to follow these 
other important issues. Human rights is co-equal in importance, 
perhaps even more important than conventional forces, chemical 
weapons, ballistic missiles, matters of that sort.
    Senator Brownback. Thank you for your work on this. I do 
not want to demean it because I think you have done very 
important work. But there is a level of frustration with what 
is there too.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Brownback.
    I have one question. I know the distinguished ranking 
member has another question.
    Let me just state it this way. Has the United States 
clearly expressed to North Korea what actions on their part 
related to the export or trade of nuclear-related materials 
would have the equivalence of crossing a red line with the 
United States and our allies?
    Mr. Kelly. I do not know whether that is the assessment or 
not. We have not talked about red lines in any direct fora. 
Obviously, North Korea knows that the threat of transfer of 
fissionable material or nuclear weapons would be an extremely 
serious matter, or at least I expect that they know it and we 
have made that clear. But exactly what the response would be 
has got to remain with all options on the table.
    The Chairman. Do our partners around the table share that 
view of the seriousness of that export?
    Mr. Kelly. I believe they do, Mr. Chairman, yes, sir.
    The Chairman. Senator Biden.
    Senator Biden. I have one last question, Mr. Chairman. It 
has been prompted by the exchange between Senator Brownback, 
who has done an incredible amount of work on this issue. I want 
to make sure I understand.
    If there was a complete, verifiable disarmament of the 
nuclear program, abandonment of a nuclear program by North 
Korea, as I understand your statement, we would sanction non-
U.S. participation by the other five that would provide heavy 
fuel oil, that upon acceptance by the DPRK of a declaration, 
the parties, including us, would provide multilateral security 
assurances which would become more enduring as the process 
proceeded. We would participate in a study to determine the 
energy requirements. We would begin a discussion with others of 
the steps necessary for lifting economic sanctions and the 
steps necessary for removal for the DPRK from the list of state 
sponsored terrorism. So they are the things we would be 
prepared to do either sign on to others providing and not 
object to and what we would participate in considering. Is that 
correct?
    Mr. Kelly. That is the nature of the proposal that we 
offered in the last session. It may be possible that some 
things would be added to that, but essentially, sir, you have 
described it accurately.
    Senator Biden. So these things, as we have proposed it, if 
it were accepted, could go forward notwithstanding the fact 
there was no alteration of North Korea's conduct relative to 
the human rights abuses cited by my colleague, Senator 
Brownback.
    Mr. Kelly. We have not made that a condition for solving 
the nuclear weapons issue, but we made it clear that it is an 
issue that would have to be dealt with in terms of a 
normalization of our relationship at some time in the future. 
And when and how that sort of talk could begin--after all, that 
was the presentation that I was taking to North Korea in the 
early part of 2002.
    Senator Biden. By the way, I have no doubt that the 
President and the Secretary of State and all the administration 
feels extremely strongly about these human rights abuses and I 
have no doubt that there would be no normalization absent 
remedying this, full normalization. But so I am not confused 
anyway, we are making a distinction here between the full 
normalization of relationships and what would flow from a 
dismantlement of verifiable assurances that they were no longer 
engaged in their nuclear program, that they are distinct. They 
may overlap. They could be the same. But some things can move 
forward based upon total verifiable disarmament of nuclear 
capability, but the whole of the relationship cannot be mended 
without other things occurring, as well as disarmament. Is that 
a fair statement?
    Mr. Kelly. Yes, sir. And this is really the start of the 
nuclear dismantlement process that our proposal addresses in 
some detail. There is much more detail that is going to have to 
be filled in for this to succeed.
    Senator Biden. I thank you very much.
    Senator Brownback. Mr. Chairman, could I ask one more 
question?
    The Chairman. Yes, Senator Brownback.
    Senator Brownback. I very much appreciate, Senator Biden, 
you getting to the bifurcation of the issue there.
    Secretary Kelly, I am sure you have talked about this a 
lot, about putting the human rights issues on the table now to 
get them in the negotiations. It sure seems to me that that is 
really the key in driving this. When we look at past 
negotiations with the Soviet Union at another time, it was the 
set of human rights issues at the front end of it that really 
drove the radicalized change in the regime and in the country. 
And these are critically important.
    I understand the difficulty, but why not put these in the 
first tranche and not on the bigger package of normalized 
relations when you have such a horrific set and such a useful 
tool actually to talk about with them?
    Mr. Kelly. Human rights issues are out there, and the work 
you have done, Senator, the reports that you cite are a part of 
this. This is not completely ignored in other parts of the 
world, although I do not think it receives the attention that 
it really needs to. So the movement of refugees into China and 
on to South Korea and other countries is something that goes 
on. There is this in the background.
    Whether or not we should make the nuclear issue co-
dependent and co-equal with the human rights issue is really a 
question of tactics as to what would come first. In our 
consultations with the allies and partners, they feel that it 
is best to try to get movement on the nuclear weapons issue 
first if only because of the additional progress that is being 
made in developing ever-greater amounts of fissionable 
material.
    Senator Brownback. Thank you. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Brownback.
    Mr. DeTrani, I understand that you discuss regularly the 
human rights issues. Will you describe what you are doing?
    Mr. DeTrani. Mr. Chairman, that is correct. We usually are 
in a working group, and certainly when we have direct contact 
with our North Korean colleagues, we get into the whole panoply 
of the issues, in addition to the nuclear issue. We do speak 
about what you just spoke about, Senator Brownback. And 
certainly human rights is right on top of the list there. Our 
North Korean counterparts are very much aware of this, sir, 
understanding that these issues, certainly the human rights 
issue, have to be addressed as we move toward normalization.
    And we see the DPRK looking toward normalization as the 
ultimate goal for international legitimacy, what it means for 
the economic reforms, and so forth. So the word that was used 
this morning--``incentive''--there is an extreme incentive out 
there for them to move on all these issues, indeed, to include 
the human rights issue. With more transparency and the greater 
knowledge we have about these, the more pressure on them to 
rectify some of this very unfortunate behavior.
    The Chairman. Thank you very much. I thank both of you for 
your testimony today. We are looking forward to inviting you 
again because these negotiations will continue. We really 
appreciate your availability. Obviously the committee is very 
supportive of your work as you proceed on behalf of our 
country. Thank you for coming.
    Mr. Kelly. Thank you, Mr. Chairman and the committee. We 
really appreciate the support and the intense interest that you 
and so many other Senators have had at every step of this way. 
Thank you.
    The Chairman. Thank you, sir.
    I would like to call now Dr. Carter and Ambassador 
Pritchard to the witness stand.
    We welcome the Honorable Ashton B. Carter, former Assistant 
Secretary of Defense for International Security Policy, now 
Professor of Science and International Affairs at the John F. 
Kennedy School of Government at Harvard University in 
Cambridge, Massachusetts. His testimony will be followed by 
that of the Honorable Charles L. Pritchard, Visiting Fellow of 
The Brookings Institution in Washington, DC.
    Dr. Carter.

STATEMENT OF HON. ASHTON B. CARTER, FORMER ASSISTANT SECRETARY 
  OF DEFENSE FOR INTERNATIONAL SECURITY POLICY; PROFESSOR OF 
 SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY SCHOOL OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Dr. Carter. Thank you, Mr. Chairman, and members of the 
committee, for inviting me to appear before you today to speak 
about the implementation of a possible agreement with North 
Korea for the complete, verifiable, and irreversible 
dismantlement, that is, CVID, of its nuclear weapons program.
    As you know, I was very much involved in the original Nunn-
Lugar program, which was a very successful effort established 
by you, Mr. Chairman, and Senator Nunn. It accomplished CVID in 
Ukraine, Kazakhstan, and Belarus and also diminished, 
dismantled, and secured a large portion of the nuclear weapons 
legacy of the Soviet Union inherited by Russia. These very same 
methods, Nunn-Lugar methods, are at work today in Libya, in 
Iraq, and in securing highly enriched uranium around the world. 
We all hope that something similar can be done in North Korea.
    I would like to share with you nine recommendations about 
how we might do that. But before I get there, I do not want to 
put the cart before the horse. I have to say that in my 
estimation, we are a long way from an agreement with North 
Korea on CVID. I do not know whether at this point North Korea 
is susceptible to a diplomatic solution to the nuclear crisis 
at all. President Bush is correct to give diplomacy a try 
before moving to other more coercive paths, but I think we have 
to look at it as only a try.
    The alternatives to diplomacy are dangerous because they 
could spark a violent war on the Korean Peninsula. 
Additionally, they cannot be fully effective unless others join 
us in implementing them. For example, economic penalties cannot 
be effectively imposed on North Korea, if diplomacy fails, 
unless China, South Korea, and Russia agree not to undercut 
those penalties. We need international support on either path, 
whether diplomatic or more coercive. This is not a matter of 
getting a permission slip from anyone; it is a matter of making 
our policy more effective. And we are not going to get that 
support for a more coercive path unless and until the 
diplomatic path has been tried and has been shown to have 
failed.
    The last time I appeared before this committee, I called 
for a total overhaul of U.S. counter-proliferation 
capabilities. I argued that President Bush was absolutely right 
when he said that keeping the worst weapons out of the hands of 
the worst people was the highest national security priority for 
any American President. But I also pointed out that U.S. policy 
in recent years has focused mostly on the worst people and far 
too little on the worst weapons. We have waged a war on 
terrorism but have not yet begun a parallel war on weapons of 
mass destruction. In fact, the only major action taken against 
weapons of mass destruction was the invasion of Iraq, which was 
an action I supported, in the firm conviction that Saddam 
Hussein's weapons of mass destruction would be found after the 
war. But it turns out that pre-war intelligence falsely 
overstated Iraq's weapons of mass destruction capabilities.
    Meanwhile, as all eyes were on Iraq, North Korea and Iran 
plunged forward with their nuclear programs. Efforts to secure 
materials in Russia and worldwide proceeded at their pre-9/11 
bureaucratic pace, and the Department of Homeland Security, the 
Department of Defense and the intelligence community continued 
to give inadequate attention to overhauling their counter-
proliferation programs to deal with the age of terrorism.
    The most adverse of all these recent developments in 
counter-proliferation has taken place in North Korea. The North 
quadrupled its stock of plutonium in the most significant 
proliferation disaster since Pakistan went nuclear in the 1980s 
under the scientific leadership of A.Q. Khan. Letting North 
Korea go nuclear would represent a security catastrophe for the 
United States in no fewer than five ways.
    First, it would weaken deterrence on the Korean Peninsula 
and make destructive war there both more likely and more 
destructive.
    Second, it could lead to a domino effect of proliferation 
in East Asia, as South Korea, Japan, Taiwan, and others 
reconsider their decisions to forego nuclear weapons.
    Third, it would undercut the global nuclear Non-
Proliferation Treaty regime.
    Fourth, North Korea might well sell plutonium as it sells 
ballistic missiles.
    And fifth, if North Korea collapses, we will need to worry 
about where its plutonium goes during the upheaval.
    These last two points alone illustrate why a nuclear North 
Korea is unacceptable to U.S. and international security, 
because they show that proliferation to states is also a 
potential route to sub-state nuclear terrorism.
    For these five reasons, the United States must put stopping 
the nuclear program first in its priorities in dealing with 
North Korea, above reducing North Korea's conventional forces, 
and above transforming its repressive political system and 
backward economic system. Strategy is about priorities. These 
other objectives remain important U.S. goals, but the Bush 
administration is correct to put nuclear CVID at the center of 
its negotiating strategy.
    Unfortunately, the U.S. negotiating position has 
deteriorated significantly since the crisis began in late 2002, 
when North Korea's plutonium program was unfrozen and its 
uranium enrichment program revealed. For the 8 preceding years, 
the 8,000 fuel rods containing several bombs' worth of weapons 
grade plutonium were at Yongbyon, where they could be 
inspected--or, for that matter, destroyed--and were months away 
from being converted into bomb form. Now they are out of 
Yongbyon, location unknown, and presumably at least some of 
them have been reprocessed to extract bomb-ready plutonium.
    The U.S. position among other parties in the region has 
also taken a turn for the worse. South Korea and China have the 
power to reward and coerce North Korea--they possess carrots 
and sticks that are at least as potent as ours--if they can be 
persuaded to wield them in the nuclear diplomacy. But in the 
absence of a clear U.S. negotiating strategy, each of these 
partners has begun to go its own way.
    In South Korea, a younger generation seems to have lost its 
strategic bearings entirely, wishing away the North Korean 
threat and even going so far as to make the astonishing 
suggestion that the United States is the greater threat. The 
older generation of South Korean leaders has done too little to 
educate the younger generation about the South's actual 
interests and responsibilities. The United States has 
exacerbated this situation through 3\1/2\ years of delay in 
formulating a negotiating strategy, and by its clumsy handling 
of its plans to rebase U.S. forces on the peninsula.
    China should apply its full weight to pressuring North 
Korea to agree to a reasonable U.S. negotiating position. But 
in the absence of a clear U.S. position, China has also been 
looking the other way as North Korea advances its nuclear 
program. In fact, China and South Korea appear to be 
collaborating closely. This is a symptom of a larger trend in 
East Asia, where China's power and influence grow and regional 
states find themselves tempted to align with China and move 
away from the United States. Our government's near-total focus 
on the Middle East has kept us from countering this trend 
toward the erosion of the U.S. strategic position in East Asia.
    Mr. Chairman and members of the committee, I therefore 
approach my assigned task in this hearing with grave doubts. 
But in the spirit of hope, allow me to make some observations 
on how the Nunn-Lugar method might be applied in implementing a 
denuclearization agreement with North Korea.
    First, Nunn-Lugar-like assistance with CVID is a reasonable 
carrot for the United States to offer North Korea. This Nation, 
always loath to bribe North Korea, and burned once in the 
Agreed Framework by North Korean cheating, can hardly be 
expected to give North Korea large tangible rewards for 
stepping back from the nuclear threshold. It is likely that 
South Korea, China, Russia, and Japan will do so but not the 
United States.
    But the U.S. can reasonably offer two carrots. The first is 
an intangible: namely, a pledge not to attack North Korea if it 
foregoes nuclear weapons. This simply makes explicit what 
should be our policy anyway. The second is Nunn-Lugar-like 
assistance with CVID. Such assistance, like the Nunn-Lugar 
program in general, should be seen as an investment in our own 
security, not a reward to North Korea. Secretary of Defense 
Bill Perry used to call the Nunn-Lugar program in the former 
Soviet Union ``defense by other means.''
    Second, while CVID must be the end state prescribed in any 
agreement, as a practical matter this state will be approached 
in stages. Recall that the Agreed Framework also prescribed 
CVID of North Korea's plutonium infrastructure. Its uranium 
provisions were not verifiable and, sure enough, North Korea 
cheated on them. The problem with the Agreed Framework's 
plutonium provisions was not that it did not have the right 
goal, or that it approached that goal in stages. The problem 
was that implementation never progressed beyond the first 
stage, the so-called freeze. We need to make sure any new 
agreement does not get stuck in an early stage of 
implementation. The agreement will need to build in penalties 
to North Korea for stalling. On our side, Congress especially 
will need to support the implementation of the agreement over 
time and over successive administrations until CVID is 
achieved. With the Agreed Framework, first Congress and then 
the Clinton administration betrayed signs of buyer's regret 
soon after the agreement was signed, and this played into the 
hands of North Korea's desire to stall at the freeze stage.
    Third, the United States should begin program design for 
CVID now. The program design should include technical 
objectives and milestones, supply and construction plans, 
estimated costs, and a program management structure giving 
clear authority and accountability to a single U.S. official. 
This last point is important. Over the history of the Nunn-
Lugar program, its projects have been implemented by Defense, 
State, Energy, and Commerce. These Departments have developed 
expertise in these types of projects and it would be imprudent 
not to exploit it for the North Korea program. But we cannot 
confront North Korea with the same bureaucratic chaos with 
which the states of the former Soviet Union still contend.
    The program design should be shown to the North Koreans and 
their input solicited. Doing so will smooth things down the 
road if an agreement is reached, and it might even whet their 
appetite for such an agreement in the first place.
    Obviously a program plan can only be notional at this stage 
and will need to be refined as we learn more about North 
Korea's nuclear infrastructure. Without a specific program 
plan, it is difficult to estimate costs. But a reasonable 
estimate would be that the North Korea Nunn-Lugar program would 
be a factor of ten smaller than the former Soviet Union 
program--that is, tens of millions of dollars per year for a 
10-year period.
    Fifth, by far the preferable role for congressional 
oversight is to review the program plan in advance as it 
considers the overall wisdom of any agreement the executive 
branch reaches with North Korea. To the extent possible, we 
should avoid a situation in which every stage of implementation 
and every needed appropriation for assistance becomes a mini-
crisis in U.S. politics. The North will exploit such crises to 
stall and re-bargain the agreement. The result will be to the 
U.S. disadvantage in the long run. Well-intentioned but totally 
counterproductive congressional restrictions have greatly 
damaged the denuclearization effort in the former Soviet Union.
    To yield results that are complete, the ``C'' in CVID, and 
irreversible, the ``I'' in CVID, the Nunn-Lugar concept for 
North Korea, like that for Ukraine, Kazakhstan, and Belarus, 
should cover all portions of the nuclear infrastructure: 
weapons and materials, production and storage facilities, R&D 
centers, and the scientists and workers who populate it.
    Seventh, verification, the ``V'' in CVID, will be aided by 
a Nunn-Lugar approach. A cooperative effort in which the United 
States is deeply involved, on the ground and in person with 
North Korean technologists, will give important insights and 
confidence to complement formal verification measures and 
national intelligence collection.
    Eighth, while in principle other nations in the six-party 
talks could also provide Nunn-Lugar type assistance to 
implement an agreement, it is probably preferable that the 
program to implement the agreement be U.S. only. The United 
States has the expertise of the existing Nunn-Lugar program 
under its belt, an enormous incentive to see CVID succeed, and 
a disinclination to provide other types of assistance to North 
Korea that China, Russia, South Korea, and Japan might provide.
    Ninth and finally, elimination of chemical and biological 
weapons and ballistic missiles can be added to the agreement 
and to the resulting Nunn-Lugar program, though with lesser 
priority than nuclear weapons. Chemical weapons are not much 
more destructive, pound for pound or liter for liter, than 
conventional weapons and hardly deserve the mass destruction 
designation. Biological weapons are a true weapon of mass 
destruction, but the United States must formulate strong 
counters against biowarfare and bioterrorism irrespective of 
North Korea, and these countermeasures, if taken, will likely 
provide comparable protection against North Korean bioweapons. 
And ballistic missiles are a poor way for an attacker to spend 
money unless they carry nuclear and biological warheads. So our 
concerns about missiles end up being derivative of these 
weapons. For these reasons I think it is safe to sequence these 
other weapon types after nuclear weapons from a purely military 
perspective.
    Mr. Chairman and members of the committee, let me close by 
stressing that policymaking and implementation are different 
processes requiring different skills. Too often our policy is 
brilliant, but when it comes to spending the taxpayers' money 
on complex and novel technical projects, especially in foreign 
lands, our performance is less than brilliant. Joint military 
operations are, fortunately, an exception to this observation. 
But when one considers the fumbling in the early years of the 
Nunn-Lugar program in the former Soviet Union, to which I can 
attest personally, the first year of the Coalition Provisional 
Authority in Iraq, the first 3 years of the U.S. Homeland 
Security program, one can easily see that successful 
implementation is not always assured even when the policy 
objectives are crystal clear. The complexity of a North Korea 
CVID program based on the Nunn-Lugar precedent, together with 
the inimitable qualities of the North Korean Government, mean 
that implementation will require stamina and finesse on the 
part of both the executive and legislative branches.
    Thank you.
    [The prepared statement of Dr. Carter follows:]

              Prepared Statement of Hon. Ashton B. Carter

       implementing a denuclarization agreement with north korea
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear before you to discuss the implementation of a possible 
agreement with North Korea for the complete, verifiable, and 
irreversible dismantlement (CVID) of its nuclear weapons program. I was 
deeply involved in the Nunn-Lugar program from 1991 to 1996, a very 
successful effort established by the Chairman of this Committee and 
Senator Nunn. The Nunn-Lugar program accomplished CVID in Ukraine, 
Kazakstan, and Belarus, as well as the dismantlement and securing of a 
large portion of Russia's nuclear weapons legacy from the Soviet Union. 
Currently the methods it pioneered are also at work in Iraq and Libya, 
and in securing highly enriched uranium around the world.
    We all hope something similar can be accomplished in North Korea. I 
must begin, however, by warning that in my estimation we are a long way 
from an agreement with North Korea on CVID. I do not know whether at 
this point North Korea is susceptible to a diplomatic solution to the 
nuclear crisis at all. But President Bush is correct to give diplomacy 
a try before moving to other, more coercive paths. The alternatives to 
diplomacy are dangerous because they could spark a violent war on the 
Korean Peninsula. Additionally, they cannot be fully effective unless 
others join us in implementing them. For example, economic penalties 
cannot be imposed on North Korea unless China, South Korea, and Russia 
agree not to undercut them. This needed international support is not a 
matter of a ``permission slip,'' it is critical to making U.S.-led 
policy effective. We will not get this support unless the diplomatic 
path has been tried and been shown to have failed.
    The last time I appeared before this Committee I called for an 
overhaul of U.S. counterproliferation capabilities. I argued that 
President Bush was dead on when he said that keeping the worst weapons 
out of the hands of the worst people was an American president's 
highest national security priority. The worst weapons are nuclear and 
biological; the worst people are rogue states and increasingly 
terrorists. But I also pointed out that U.S. policy in recent years has 
been focused mostly on the worst people and far too little on the worst 
weapons. We have waged a war on terrorism but have not yet begun a 
parallel war on weapons of mass destruction (WMD). The only major 
action taken against WMD was the invasion of Iraq, an action which I 
supported in the firm conviction that Saddam Hussein's WMD would be 
found after the war. But it turns out that pre-war intelligence falsely 
overstated Iraq's WMD capabilities. Meanwhile, as all eyes were on 
Iraq, North Korea and Iran plunged forward with their nuclear programs; 
efforts to secure nuclear materials in Russia and worldwide proceeded 
at their pre-9/11 bureaucratic pace; and the Department of Homeland 
Security, Department of Defense, and Intelligence Community continued 
to give inadequate attention to overhauling their counterproliferation 
programs to deal with the age of terrorism.
    The most adverse of all these recent developments in 
counterproliferation has taken place in North Korea. The North 
quadrupled its stock of plutonium, in the most significant 
proliferation disaster since Pakistan went nuclear in the 1980s under 
the leadership of scientist A.Q. Khan. Letting North Korea go nuclear 
represents a security catastrophe in no fewer than five ways. First, it 
would weaken deterrence on the Korean Peninsula and make war there both 
more likely and more destructive. Second, it could lead to a domino 
effect of proliferation in East Asia as South Korea, Japan, Taiwan, and 
others reconsider their decisions to forego nuclear weapons. Third, it 
would undercut the global Nuclear Nonproliferation Treaty (NPT) regime. 
Fourth, North Korea might sell plutonium, as it sells ballistic 
missiles. And fifth, if North Korea collapses we will need to worry 
about where its plutonium goes during the upheaval. These last two 
points alone illustrate why a North Korean nuclear program is 
unacceptable to U.S. and international security, because they show that 
proliferation to states is also a potential route to sub-state nuclear 
terrorism.
    For these five reasons, the United States must put stopping the 
nuclear program first in its priorities when dealing with North Korea--
above reducing North Korea's conventional forces, and above 
transforming its repressive political system and backward economic 
system. Strategy is about priorities. These other objectives remain 
important U.S. goals, but the Bush administration is correct to put 
nuclear CVID at the center of its negotiating strategy.
    Unfortunately, the U.S. negotiating position has deteriorated 
significantly since the crisis began in late 2002, when North Korea's 
plutonium program was unfrozen and its uranium enrichment program 
revealed. For the eight preceding years, the 8,000 fuel rods containing 
several bombs' worth of weapons grade plutonium were at Yongbyon, where 
they could be inspected (or, for that matter, destroyed) and were 
months away from being converted into bomb form. Now they are out of 
Yongbyon, location unknown, and presumably at least some of them have 
been reprocessed to extract bomb-ready plutonium.
    The U.S. position among other parties in the region has also taken 
a turn for the worse. South Korea and China have the power to reward 
and coerce North Korea--they possess carrots and sticks--that are at 
least as potent as ours--if they can be persuaded to wield them in the 
nuclear diplomacy. But in the absence of a clear U.S. negotiating 
strategy, each of these partners has begun to go its own way.
    In South Korea, a younger generation seems to have lost its 
strategic bearings entirely, wishing away the North Korean threat and 
even going so far as to make the astonishing suggestion that the United 
States is the greater threat. The older generation of South Korean 
leaders has done too little to educate the younger generation about the 
South's actual interests and responsibilities. The United States has 
exacerbated this situation through three and a half years of delay in 
formulating a negotiating strategy, and by its clumsy handling of its 
plans to rebase U.S. forces on the peninsula.
    China should apply its full weight to pressuring North Korea to 
agree to a reasonable U.S. negotiating position. But in the absence of 
a clear U.S. position, China also has been looking the other way as 
North Korea advances its nuclear program. In fact, China and South 
Korea appear to be collaborating closely. This is a symptom of a larger 
trend in East Asia, where China's power and influence grow and regional 
states find themselves tempted to align with China and move away from 
the United States. Our government's near-total focus on the Middle East 
has kept us from countering this trend towards the erosion of the U.S. 
strategic position in East Asia.
    Mr. Chairman and Members of the Committee, I therefore approach my 
assigned task in this hearing with grave doubts. But in a spirit of 
hope, allow me to make some observations on how the ``Nunn-Lugar 
method'' might be applied to implementing a denuclearization agreement 
with North Korea.
    1. Nunn-Lugar assistance with CVID is a reasonable ``carrot'' for 
the United States to offer North Korea. This nation--always loath to 
``bribe'' North Korea, and burned once in the Agreed Framework by North 
Korean cheating--can hardly be expected to give North Korea large 
tangible rewards for stepping back from the nuclear threshold. It is 
likely that South Korea, China, Russia, and Japan will do so, but not 
the United States. But the U.S. can reasonably offer two carrots. The 
first is an intangible: namely, a pledge not to attack North Korea if 
it foregoes nuclear weapons. This simply makes explicit what should be 
our policy anyway. The second is Nunn-Lugar-like assistance with CVID. 
Such assistance, like the Nunn-Lugar program in general, should be seen 
as an investment in our own security, not a reward to North Korea. 
Secretary of Defense Bill Perry used to call the Nunn-Lugar program in 
the former Soviet Union ``defense by other means.''
    2. While CVID must be the end-state prescribed in any agreement, as 
a practical matter this state will be approached in stages. Recall that 
the Agreed Framework also prescribed CVID of North Korea's plutonium 
infrastructure (its uranium provisions were not verifiable, and sure 
enough North Korea cheated on them). The problem with the Agreed 
Framework's plutonium provision was not that it did not have the right 
goal, or that it approached that goal in stages. The problem was that 
implementation never progressed beyond the first stage, the so-called 
``freeze.'' We need to make sure any new agreement does not get stuck 
in an early stage of implementation. The agreement will need to build 
in penalties to North Korea for stalling. On our side, Congress 
especially will need to support the implementation of the agreement 
over time and over successive administrations until CVID is achieved. 
With the Agreed Framework, first Congress and then the Clinton 
administration betrayed signs of ``buyer's regret'' soon after the 
agreement was signed, and this played into the hands of North Korea's 
desire to stall at the ``freeze'' stage.
    3. The United States should begin program design for CVID now. The 
program design should include technical objectives and milestones, 
supply and construction plans, estimated costs, and a program 
management structure giving clear authority and accountability to a 
single U.S. official. This last point is important. Over the history of 
the Nunn-Lugar program, its projects have been implemented by Defense, 
State, Energy, and Commerce. These departments have developed expertise 
in these types of projects, and it would be imprudent not to exploit it 
for a North Korea program. But we cannot confront North Korea with the 
same bureaucratic chaos with which the states of the former Soviet 
Union still contend.
    The program design should be shown to the North Koreans and their 
input solicited. Doing so will smooth things down the road if an 
agreement is reached, and it might whet their appetite for such an 
agreement in the first place.
    4. Obviously a program plan can only be notional at this stage and 
will need to be refined as we learn more about North Korea's nuclear 
infrastructure. Without a program plan, it is impossible to estimate 
costs. A reasonable estimate would be that the North Korea Nunn-Lugar 
program would be a factor often smaller than the former Soviet Union 
program--that is, tens of millions of dollars per year for a ten year 
period.
    5. By far the preferable role for Congressional oversight is to 
review the program plan in advance as it considers the overall wisdom 
of any agreement the executive branch reaches with North Korea. To the 
extent possible, we should avoid a situation in which every stage of 
implementation and every needed appropriation for assistance becomes a 
mini-crisis in U.S. politics. The North will exploit such crises to 
stall and re-bargain the agreement. The result will be to the U.S. 
disadvantage in the long run. Well-intentioned but totally 
counterproductive Congressional restrictions have greatly damaged the 
denuclearization effort in the former Soviet Union.
    6. To yield complete (the C in CVID) and irreversible (the I in 
CVID) results, the ``Nunn-Lugar'' concept for North Korea, like those 
for Ukraine, Kazakstan, and Belarus, should cover all portions of its 
nuclear infrastructure: weapons and materials, production and storage 
facilities, R&D centers, and the scientists and workers who populate 
it.
    7. Verification (the V in CVID) will be aided by a Nunn-Lugar 
approach. A cooperative effort in which the United States is deeply 
involved, on the ground and in person with North Korean technologists, 
will give important insights and confidence to complement formal 
verification measures and national intelligence collection.
    8. While in principle other nations in the Six-Party talks could 
also provide Nunn-Lugar-type assistance to implement an agreement, it 
is probably preferable that the program to implement the agreement be 
U.S.-only. The United States has the experience of the existing Nunn-
Lugar program under its belt, an enormous incentive to see CVID 
succeed, and a disinclination to provide the other types of assistance 
to North Korea that China, Russia, South Korea, and Japan might 
provide.
    9. Elimination of chemical and biological weapons and ballistic 
missiles can be added to the agreement and to the resulting Nunn-Lugar-
like program, though with lesser priority than nuclear weapons. 
Chemical weapons are not much more destructive, pound for pound or 
liter for liter, than conventional weapons and hardly deserve the 
``mass destruction'' designation. Biological weapons are a true WMD, 
but the United States must formulate strong counters against biowarfare 
and bioterrorism irrespective of North Korea, and those 
countermeasures--if taken--will likely provide protection against North 
Korean bioweapons. Ballistic missiles are a poor way for an attacker to 
spend money unless they carry nuclear or biological warheads, so our 
concerns about missiles end up being derivative of these weapons.
    Mr. Chairman and Members of the Committee, let me close by 
stressing that policymaking and implementation are different processes 
requiring different skills. Too often our policy is brilliant but when 
it comes to spending the taxpayers' money on complex and novel 
technical projects, especially in foreign lands, our performance is 
less than brilliant. (Joint military operations are fortunately an 
exception to this observation.) But when one considers the fumbling in 
the early years of the Nunn-Lugar program in the former Soviet Union 
(to which I can attest personally), the first year of the Coalition 
Provisional Authority and ``stability operations'' in Iraq, and the 
first three years of the U.S. Homeland Security program, one can easily 
see that successful implementation is not always assured even when the 
policy objectives are crystal clear. The complexity of a North Korea 
CVID program based on the Nunn-Lugar precedent, together with the 
inimitable qualities of the North Korean government, mean that 
implementation will require stamina and finesse on the part of both the 
executive and legislative branches.

    The Chairman. Thank you very much, Dr. Carter.
    Ambassador Pritchard.

 STATEMENT OF HON. CHARLES L. PRITCHARD, VISITING FELLOW, THE 
                     BROOKINGS INSTITUTION

    Ambassador Pritchard. Mr. Chairman, thank you very much for 
the opportunity to speak here today. I am very pleased that 
this committee has taken the lead in educating the American 
public on such a critical issue.
    You have asked me to address the energy component of a 
theoretical resolution of the current nuclear crisis on the 
Korean Peninsula. While I am not an energy expert per se, I did 
have the opportunity to serve as the U.S. Representative to the 
Korean Peninsula Energy Development Organization for about 2\1/
2\ years. So I am going to use that as a springboard to move 
forward to answer your question. But first, I thought I would 
review a little bit why energy is so important in this 
particular situation and why I think it is going to be critical 
in the resolution of anything that we are able to achieve.
    In 1985, the former Soviet Union was able to get the North 
Koreans to agree to join the nuclear Non-Proliferation Treaty 
in exchange for the concept that Moscow would sell to North 
Korea four light water reactors [LWRs] for the provision of 
energy. That particular reactor that went into the NPT was a 5 
megawatt reactor that Mr. Luse and I visited this past January. 
It is now back on line. It originally came on line in 1986 and, 
as we later found out, was taken off line for several months 
between 1989 and 1990 while the North Koreans removed several 
hundred spent fuel rods and ultimately extracted enough 
plutonium to create perhaps one or two nuclear weapons.
    That same reactor was ultimately covered in the 1994 Agreed 
Framework which froze the nuclear facilities at Yongbyon. It 
was shut down and the spent fuel rods removed and safely stored 
under IAEA supervision. As part of the negotiated deal, the 
United States pledged to organize under its leadership a 
consortium to finance and to supply two light water reactors 
and provide interim fuel in the form of heavy fuel oil until 
the first light water reactor came on line. In practice, the 
South Koreans pledged to finance 70 percent of that light water 
reactor operation while the Japanese pledged a dollar amount of 
$1 billion. It did not quite add up to 100 percent, but it was 
close. For our part, for the United States' part, we pledged to 
organize and to supply the heavy fuel oil that was calculated 
by what was going to be the foregone amount of energy that the 
North Koreans would lose by freezing their nuclear facilities, 
both the 5 megawatt and what they calculated was under 
construction at the time, a 50 megawatt reactor and also a 200 
megawatt reactor. That amount was set at 500,000 metric tons of 
fuel oil per year.
    Following Assistant Secretary Kelly's trip to Pyongyang in 
October of 2002 to confront North Korea over their secret 
highly enriched uranium program, I led an effort as the U.S. 
Representative to KEDO, upon instructions, to suspend KEDO's 
provision of heavy fuel oil to North Korea until there was a 
resolution of the HEU program. We later then suspended the 
construction on the two light water reactor programs.
    What happened in rapid succession after that was the North 
Koreans' response to that November 2002 suspension of heavy 
fuel oil was for the North Koreans to declare that the United 
States had effectively killed the Agreed Framework and they 
then began to toss out the IAEA inspectors, as you know, and 
began to restart their 5 megawatt reactor in January 2002, 
unfreezing their facilities at Yongbyon. Their initial 
rationale that they provided me was they needed to provide 
energy as a replacement for the heavy fuel oil that had been 
suspended.
    In this latest round of six-party talks, North Korea is 
reported to have demanded that the United States, at the point 
that the freeze goes into effect, take part in energy aid of 
some 2 million kilowatts, in addition from removing them from 
the list of state sponsors of terrorism and lifting the 
economic sanctions as part of its reward for freeze program.
    This gap, I would point out, between the United States and 
others may simply be termed as something that would be 
predictable at this stage of negotiations and not something I 
would be extremely concerned about. North Korea is attempting 
to devalue the U.S. offer while they increase the demand that 
it is making for its own settlement. But more importantly, it 
highlights the important role that energy plays in any 
settlement, particularly from a North Korean point of view.
    What I also need to do at this point is to point out to 
you, before we get any further into this discussion on energy, 
that there are several private and quasi-official efforts 
proceeding in the area of possible provision of energy to North 
Korea. One of these efforts involves the United Nations 
Secretary General's Special Envoy to North Korea. I will leave 
it to him to explain how, if at all, his efforts have been 
coordinated in the ongoing multilateral talks and how it may or 
may not support a negotiated settlement.
    What is clear, Mr. Chairman, is that North Korea has a 
severe energy shortage that has affected all aspects of 
national and individual life. Industrial capacity is down. 
Electricity for agricultural use is insufficient. Basic 
necessities of life, such as heating and electricity, are 
unreliable. This was the same situation that U.S. negotiators 
used as leverage in 1994 that led to the Agreed Framework and 
it is the same situation that can provide U.S. negotiators a 
similar level of leverage today.
    Energy that was supplied to North Korea, as a result of the 
Agreed Framework, was both short- and long-term. It was 
controlled and reversible in the event North Korea reneged on 
its commitments. As I mentioned earlier, we suspended further 
deliveries of near-term energy assistance in the form of heavy 
fuel oil in November 2002 and later suspended the longer-term 
energy assistance in the form of LWR projects in December this 
past year. It is appropriate that future deliveries of energy 
that are part of a diplomatic resolution of the current crisis 
likewise be phased and tied to North Korean performance of its 
objectives and obligations.
    That being said, the situation today requires full 
consideration be given to all variables we face. For example, 
it would be easy from an American point of view to declare the 
Agreed Framework dead, ending any and all support of the LWR 
project at Kumho. I believe that would be short-sighted. While 
personally I do not envision any scenario in which the current 
LWR project is completed as originally contemplated and the 
keys of an operational LWR nuclear facility turned over to 
Pyongyang, I do think we must look further down the road to a 
point in time when reunification of North and South Korea is a 
reality. My assumption is that when the time comes, a reunified 
peninsula would be ruled by a democratic government allied to 
the United States. That reunified nation, let alone the 
projected needs of the current Republic of Korea, will have 
vastly greater energy requirements. It stands to reason that 
some of that energy may well be supplied by nuclear facilities 
yet to be built. In that regard, I can see value to preserving 
the current LWR work at Kumho or even advancing it under a 
formula that keeps control in the hands of the ROK or some 
other international entity until reunification occurs.
    Since I have mentioned KEDO and the LWR project, let me 
continue on that theme, if I may. I must confess that when I 
worked on the National Security Council for about 5 years, I 
functioned as the deputy to Ambassador Chuck Kartman who first 
as the chief negotiator and concurrently as the U.S. 
Representative to KEDO urged me to be more fully involved with 
KEDO. I viewed that as a tar pit and did my best to stay away 
from it to my regret, for as you know, I succeeded him in that 
job as U.S. Representative to KEDO.
    What I learned very quickly, once in that job in May 2001 
and had reinforced over the next 2\1/2\ years, is that KEDO has 
an extremely strong international staff composed of experts 
from each of the consortium's countries, the United States and 
Japan, the Republic of Korea, and the European Union. I worked 
closely with each of the consortium board members, as well as 
its executive director, Ambassador Kartman. I have concluded 
that KEDO as an organization is well placed to transition with 
minimal effort to an organization that could contribute to the 
procurement and distribution of non-nuclear forms of energy 
assistance to North Korea as a part of a diplomatic resolution 
to the current nuclear crisis.
    KEDO has years of experience in purchasing HFO on the world 
market and having it delivered to North Korea. It has 
negotiated tough protocols with Pyongyang requiring 
internationally acceptable behavior and the development of 
responsible internal regulations governing conduct and the 
rights at the LWR site at Kumho. Equally important, the KEDO 
staff has established a professional, non-political 
relationship in doing business with its North Korean 
counterparts. Moreover, the North Koreans have had 9 years of 
experience in dealing with KEDO. They have developed confidence 
in the ability to work with its people, both from a policy and 
operational standpoint. In addition, they have established a 
bureaucratic counterpart to KEDO with enough standing in their 
own system to get decisions carried out.
    Before KEDO can be restructured as a tool of six-party 
diplomacy, the EU needs to be brought into the current nuclear 
resolution process, if only on an informal basis. As a voting 
member of the board of directors, having EU approval for the 
future transition of KEDO is essential. Any organization, in my 
opinion, that was created to replicate KEDO's expertise would 
be an unnecessary waste of time and energy.
    Having established that a key element in the provision of 
energy to North Korea already exists, let me turn to potential 
energy packages that could be considered.
    When talking about energy assistance to North Korea, you 
have to expand your initial thoughts that normally turn to coal 
or oil to all aspects of the energy system that would be 
beneficial and therefore of value to North Korea. First of all, 
North Korea's infrastructure is obsolete and inefficient. Basic 
upgrades from insulating homes and businesses, to grid 
improvements, rehabilitation of old plants and mines, to 
construction of new power plants would play an important role 
in the equivalent delivery of energy assistance to North Korea. 
I think that is important.
    Natural gas has been mentioned earlier. Natural gas via 
pipeline from Russia is another possibility, but one that could 
be part of a longer-term package. However, that has been thrown 
around as though it is an easy remedy. The cost involved might 
very well be prohibitive in a shorter-term solution and 
therefore might necessarily be part of a longer-term solution 
and very well might need to be part of a government commercial 
mix or simply an entirely commercial venture.
    For negotiating reasons, a phased approach providing energy 
assistance is best. Near-term provision of energy could easily 
come in the form of heavy fuel oil, and that is what I believe 
is probably the most wise thing to do. I do not think it is 
wise for the United States to exclude itself from participation 
in the provision of HFO, as was explained in the U.S. proposal 
today. Nor do I think North Korea would find such a proposal 
acceptable. North Korea has the capacity to handle and convert 
HFO to electricity if provided on a scheduled basis.
    One of the problems that we have had in the past with HFO 
is the delivery. We have had problems finding the money, 
getting the money on time, purchasing, having it delivered. 
Usually it came at the end of the calendar year and it came in 
great quantities. It overwhelmed the North Korean system. They 
were unable to plan and use the HFO efficiently. So any effort 
to provide HFO ought to be done on a scheduled and regular 
basis. It would be the most efficient thing to do.
    In addition to HFO, pilot projects designed to repair 
existing mines and conventional power plants could be 
undertaken. One novel idea is the first construction of a new 
conventional power plant could occur at Kumho, which is the 
site of the current LWR project. The infrastructure at Kumho 
already exists. I was there in August 2002, and I can tell you 
it is a world-class facility. Moving forward on another project 
using those existing facilities would save time and effort 
rather than replicate them someplace else.
    Longer-term projects that could be phased in as progress is 
made in fulfilling non-proliferation obligations would include 
transmission grid rehabilitation. As Assistant Secretary Kelly 
mentioned, their grid system was created by the Japanese at the 
beginning of the last century. It is dilapidated. They lose up 
to perhaps 25 percent of their energy just through the 
transmission over that grid system. Increases in natural gas 
pipeline construction, modernization of existing facilities, 
and construction of hydroelectric power plants should be 
considered.
    A long-term rehabilitation of the energy infrastructure 
would be enormously important to South Korea. When 
reunification takes place, the cost of bringing North Korea up 
to minimum South Korean standards will be enormous. Any 
opportunity for Seoul to get started in infrastructure 
rehabilitation in North Korea before reunification would be a 
welcome head start.
    Key to any longer-term energy assistance, as Assistant 
Secretary Kelly has pointed out, would be a serious energy 
needs survey of North Korea. I would say that that survey must 
be validated by South Korea.
    All the programs I have mentioned have costs that have to 
be calibrated to the value that the six parties must agree upon 
in connection with the elimination of North Korea's nuclear 
program. I do believe energy assistance will be an important 
component in the eventual resolution of the nuclear crisis.
    If I may, let me just reiterate and perhaps expand a bit on 
some of the things that I just said in way of conclusion.
    First, I think we already have an organization in existence 
that could be used on short notice and that is KEDO. It 
requires only that we find a way in which the European Union is 
brought in in some way to the current six-party process, 
whether it is as an observer or not. It has an added benefit 
that Senator Brownback might find acceptable in that the 
European Union probably, even though it is embryonic, has had 
far better success in discussing with North Korea matters of 
human rights and humanitarian affairs. They could bring that 
dimension into the current process as well.
    I do believe the United States should be involved. I cannot 
imagine that we would want an organization that would have an 
independent voice in how HFO is purchased and delivered that 
does not include the United States. We would lose our influence 
and leverage. I do not think, as I mentioned earlier, that 
North Korea would accept anything less. It shows a less than 
full commitment by the United States and it is one in which I 
think on principle we ought to be involved in.
    I do believe HFO is the initial way to go, and it ought to 
be phased. And I also believe that it ought not to exceed the 
500,000 metric tons that was originally part of the Agreed 
Framework. As you do recall, the 500,000 metric tons was geared 
to the plutonium portion of the nuclear program. The fact that 
the North Koreans have cheated on that program, to suggest that 
we would do more because there is an HEU component does smack 
as though we are purchasing the HEU component rather than have 
the North Koreans acknowledge their violation of the Agreed 
Framework. So I do think the initial limitation should be no 
more than 500,000 metric tons of fuel oil.
    And I think we need to look beyond, as I mentioned, the 
short term to infrastructure development. That certainly would 
be of long-term assistance to South Korea. It would help in our 
development of our relationship with South Korea.
    The energy survey that I mentioned needs to be done. I 
think it needs to be done concurrent at the initial phase, not 
later at some date prior to the dismantlement or during the 
dismantlement, but an initial phase in which the North Koreans 
would be able to ascertain the intentions of the United States 
and understand that we were serious about the longer-term 
benefits of energy provision that would flow their way.
    Finally, if possible, in the longer term, I would look to 
expand the participation to include China and Russia. Right 
now, the Chinese have their own bilateral assistance of energy 
to North Korea. It would be better if a portion of that were 
included in the resolution of this nuclear issue.
    Mr. Chairman, thank you very much.
    [The prepared statement of Ambassador Pritchard follows:]

            Prepared Statement of Hon. Charles L. Pritchard

    Mr. Chairman, thank you for the opportunity to speak today on an 
important topic. I am also pleased to see this committee take the lead 
in educating the American public on such a critical issue. I have been 
asked to address the energy component of a theoretical resolution of 
the current nuclear crisis on the Korean Peninsula.
    While I do not claim to be an energy expert, per se, I had the 
privilege of serving as the United States Representative to the Korean 
Peninsula Energy Development Organization (KEDO) from May 2001 until 
the end of August 2003. In that capacity and from my previous 
experience of working the North Korean issue from the National Security 
Council staff, I have had the opportunity to talk to a number of more 
qualified people about what an energy component to an overall 
settlement might look like.
    I propose to provide you today with some thoughts on what might be 
possible and to point out problems that will have to be addressed along 
the way. First, let me briefly review how energy has come to play such 
a prominent role in past and future dealings with North Korea.
    In exchange for agreeing to join the Non-Proliferation Treaty (NPT) 
in December 1985 and put its 5 MW(e) reactor under international 
supervision, Moscow promised to sell Pyongyang four Light Water 
Reactors (LWRs) for energy purposes. The existing reactor went on line 
in 1986 and, as we learned later, was shut down for a few months in 
1989 and 1990 while the North Koreans removed hundreds of spent fuel 
rods and extracted enough plutonium for 1 or 2 nuclear weapons. This 5 
MW(e) reactor was covered in the October 1994 Agreed Framework which 
was designed to freeze and eventually eliminate North Korea's fissile 
material production program. The reactor was shut down and its spent 
fuel rods removed and safely stored under IAEA supervision. As part of 
the negotiated deal, the United States pledged to organize under its 
leadership a consortium to finance and supply 2 LWRs and provide 
interim Heavy Fuel Oil (HFO) until the first LWR came on line. The 
practical breakout of responsibilities resulted in South Korea and 
Japan agreeing to build and principally fund the LWRs while the United 
States provided Heavy Fuel Oil. The amount of HFO was related to the 
notional electrical output of the facilities that North Korea was to 
freeze. That amount was set at 500,000 metric tons per year.
    Following Assistant Secretary Kelly's trip to Pyongyang in October 
2002 to confront North Korea over their secret Highly Enriched Uranium 
(HEU) program, I led an effort as the U.S. Representative to KEDO, upon 
instructions, in November 2002 to suspend further deliveries of HFO by 
KEDO pending resolution of the HEU issue. In response to that 
suspension, Pyongyang declared that the United States had effectively 
killed the Agreed Framework and then proceeded to unfreeze their 
nuclear facilities at Yongbyon. Part of Pyongyang's initial rationale 
for restarting its 5 MW(e) reactor in January 2003 was for the 
production of energy to replace the now suspended HFO.
    In the latest round of Six Party Talks, North Korea is reported to 
have demanded that the United States, at the point that the freeze goes 
into effect, take part in energy aid of two million kilowatts, in 
addition to removing them from the list of states sponsoring terrorism 
and lifting economic sanctions as part of its ``reward for freeze'' 
proposition.
    This gap between what the United States and others may be prepared 
to provide as part of an initial step toward complete resolution of the 
current nuclear crisis and what the North Koreans are demanding can be 
described as routine and predictable at this stage of diplomacy. North 
Korea is attempting to devalue the U.S. proposal while increasing the 
price it is demanding for settlement. But more importantly, it 
highlights the important role energy will play in any settlement.
    I must point out now before we get much further into the discussion 
of energy that there are several private and quasi-official efforts 
proceeding in the area of possible provision of energy to North Korea. 
One of these efforts involves the United Nations Secretary General's 
special envoy to North Korea. I will leave to him or others to explain 
how, if at all, his efforts have been coordinated with the on going 
multilateral talks and how it may or may not support a negotiated 
settlement.
    What is clear is that North Korea has an energy shortage that has 
affected all aspects of national and individual life. Industrial 
capacity is down, electricity for agricultural use is insufficient and 
basic necessities of life such as heating and electricity are 
unreliable. This was the situation that gave U.S. negotiators certain 
leverage in 1994 that led to the Agreed Framework and it is the same 
situation that can provide U.S. negotiators a similar level of leverage 
today.
    Energy that was supplied to North Korea as a result of the Agreed 
Framework was both short- and longer-term. It was controlled and 
reversible, in the event Pyongyang reneged on its commitments. As I 
mentioned earlier, we suspended further deliveries of near-term energy 
assistance (HFO) in November 2002 and later suspended work on the 
longer-term energy assistance (the LWR project). It is appropriate that 
future deliveries of energy that are part of a diplomatic resolution of 
the current crisis likewise be phased and tied to North Korean 
performance of its obligations.
    That being said, the situation today requires full consideration be 
given to all the variables we face. For example, it is easy from an 
American point of view to declare the Agreed Framework dead, ending any 
and all support for the LWR project at Kumho. That would be short-
sighted. While I personally do not envision a scenario in which the 
current LWR project is completed as originally contemplated and the 
keys to an operational nuclear facility turned over to Pyongyang, I do 
think we must look further down the road to a point in time when 
reunification of North and South Korea is a reality. My assumption is 
that when that time comes, a reunified peninsula will be ruled by a 
democratic government allied to the United States. That reunified 
nation, let alone the projected needs of the current Republic of Korea, 
will have vastly greater energy requirements. It stands to reason that 
some of that energy might well be supplied by nuclear facilities yet to 
be built. In that regard, I can see value to preserving the current LWR 
work at Kumho or even advancing it under a formula that keeps control 
in the hands of the ROK or some other international entity until 
reunification occurs.
    Since I have mentioned KEDO and the LWR project, let me continue on 
that theme. I must confess that when I worked on the National Security 
Council staff for several years and functioned as Ambassador Charles 
Kartman's deputy in negotiations with the DPRK, he tried his best to 
get me involved in KEDO. To my regret, I resisted his wise counsel, for 
in May 2001, I succeeded Ambassador Kartman as the U.S. Representative 
to KEDO.
    What I learned very quickly then and had reinforced over the next 
two and half years is that KEDO has an exceedingly strong international 
staff composed of experts from each of the consortium's member 
countries: the United States, Japan, the Republic of Korea and the 
European Union. I worked closely with each of the consortium's Board 
Members as well as its Executive Director, Ambassador Kartman. I have 
concluded that KEDO, as an organization, is well placed to transition 
with minimal effort to an organization that could contribute to the 
procurement and distribution of non-nuclear forms of energy assistance 
to North Korea as part of a diplomatic resolution to the nuclear 
crisis.
    KEDO has years of experience in purchasing HFO on the world market 
and having it delivered to North Korea. It has negotiated tough 
protocols with Pyongyang requiring internationally acceptable behavior 
and the development of responsible internal regulations governing 
conduct and rights at the LWR site at Kumho. Equally important, the 
KEDO staff has established a professional, non-political relationship 
in doing business with its North Korean counterparts. Moreover, the 
North Koreans now have nine years of experience dealing with KEDO. They 
have developed confidence in their ability to work with its people, 
from both a policy and operational standpoint. In addition, they have 
established a bureaucratic counterpart to KEDO with enough standing in 
their own system to get decisions carried out.
    Before KEDO can be restructured as a tool of Six Party Diplomacy, 
the EU needs to be brought into the nuclear resolution process, even if 
only on an informal basis. As a voting member of the Board of 
Directors, having EU approval for the future transition of KEDO is 
essential. Any organization that was created to replicate KEDO's 
expertise would be an unnecessary waste of time and energy, in my 
opinion.
    Having established that a key element in the provision of energy to 
North Korea already exists, let me turn to potential energy packages 
that could be considered.
    When talking about energy assistance to North Korea, you have to 
expand your initial thoughts of oil or coal to all aspects of the 
energy system that would be beneficial, and therefore of value, to 
North Korea. First of all, North Korea's infrastructure is obsolete and 
inefficient. Basic upgrades from insulating homes and businesses, to 
grid improvements, to rehabilitation of old plants and mines to new 
constructions of power plants would play a role in the equivalent 
delivery of energy assistance to North Korea. Natural gas via a 
pipeline from Russia is another possibility but one that could be part 
of a longer-term package. However, the cost involved may dictate that 
it be a mix of government-commercial if not an outright commercial 
venture.
    For negotiating reasons, a phased approach to proving energy 
assistance is best. Near-term provision of energy could easily come in 
the form of Heavy Fuel Oil. North Korea has the capacity to handle and 
convert HFO to electricity, if provided on a scheduled basis. In the 
past, North Korea complained that U.S.-provided HFO inevitably was 
unpredictable and arrived in quantities too large for them to handle 
efficiently. In addition to HFO, pilot projects designed to repair 
existing mines and conventional power plants could be undertaken. The 
first construction of a new conventional power plant could occur at 
Kumho, the site of the current LWR project. The infrastructure at Kumho 
already exists, thus shortening the time that otherwise would be 
required to begin such a project.
    Longer-term projects that could be phased in as progress is made in 
fulfilling nonproliferation obligations would include transmission grid 
rehabilitation, natural gas pipeline construction, the modernization of 
existing power plants, and construction of hydroelectric power plants 
throughout the country. The longer-term rehabilitation of the energy 
infrastructure is of enormous importance to South Korea. When 
reunification takes place the cost to bring North Korea up to minimum 
South Korean standards will be enormous. Any opportunity for Seoul to 
get started in infrastructure rehabilitation in North Korea before 
reunification would be a welcome head start. Key to any longer-term 
energy assistance would be a serious energy needs survey of North Korea 
validated by South Korea.
    All of the programs I have mentioned have costs that have to be 
calibrated to the value that the Six Parties must agree upon in 
connection to the elimination of North Korea's nuclear weapons program. 
I do believe energy assistance will be an important component in the 
eventual resolution of the nuclear crisis.
    Mr. Chairman, I want to thank you for the opportunity to appear 
this morning and look forward to answering any questions you may have.

    The Chairman. Well, thank you very much, Ambassador 
Pritchard.
    In this round of questions, Senators will have 10 minutes. 
I will commence my part of that questioning by commenting that, 
Secretary Carter, you mentioned at the outset, before you got 
into the constructive phase of your program, a certain degree 
of pessimism about how the negotiations are proceeding. You put 
that on the record, but you said that even notwithstanding 
this, down the trail things still may get better.
    On the other hand, without underscoring it, you mentioned 
the fact that we might not be successful. There could be 
military action, economic sanctions, in other words, some 
activity on the part of our government or others because of the 
seriousness of the proliferation problem. You have listed five 
crises that occur if things remained in the status quo. That is 
an ominous overtone, but nevertheless one based on your own 
experience.
    In view of that, I am struck by the fact that you suggested 
that if a so-called Nunn-Lugar approach was to be adopted here, 
one thing that we might think about would be the careful design 
of that program now, as a part of the negotiations, if there is 
a North Korean Nunn-Lugar program. We have a pretty good idea 
of who does what in this situation. We acknowledge the 
importance of the continuity of such a program. It ought not to 
go through all the hazards of the programs with regard to 
Russia or the Newly Independent States which you point out, 
from your own experience, and which I know from my own, led to 
many congressional restrictions. There were pauses during which 
there was no activity at all for a while, followed by waivers 
by the President to get it all going again. The problem of 
dealing with the North Koreans in this matter is that they 
might very well take advantage of these intervals, or of the 
lack of decision, the lack of continuity on our part. Having 
gone down that trail before, understanding hazards of something 
that starts from scratch, we need not go through all of that 
this time.
    It is important that we have the organization all set up. 
The North Koreans can look at it. In the negotiating situation, 
as it stands, we are discussing the fact that at the end of the 
trail there may be some of these discussions. This would 
pertain likewise to the energy component. But the specifics of 
this are not very clear for us or for them. So as a result, 
this is almost bound to cause more delay in the negotiations as 
the parties try to flesh it out.
    To pick up a subject that you have talked about, Ambassador 
Pritchard, with KEDO, we have an entity that people have heard 
about and has worked. However, if we eliminate KEDO, what 
happens if fuel comes again, heavy fuel or otherwise?
    Let us take the worst case scenario, as I think through 
your testimony, regarding the six-party talks, assume 
negotiations do not work. Time goes on and there comes from one 
source or another more evidence that nuclear weapons are being 
formed in whatever form and, furthermore, that there may be 
proliferation.
    Is there not some value in having these designs set up in 
light of the point you make, Ambassador Pritchard, of how this 
might ultimately be integrated into the energy components or 
programs of South Korea?
    For example, let us say that at the end of the day the 
North Korean regime is in fact overthrown. Now, many have said, 
this would be a catastrophe, because if Iraq was a problem, in 
terms of lack of planning about what happens the day after, 
then North Korea, in its current status of starving people, 
with a total lack of energy needs for development and so forth, 
would be in even worse shape. Physically, who does what? In 
either case, war or peace--preferably peace, because you have 
the credibility of planning--there is real value in having 
these designs physically available. They show that we have done 
our homework. They demonstrate the concentration of American 
and international expertise as we bring the process along. It 
brings a new dimension, to these negotiations, as opposed to us 
simply hoping at the end of September that people will be in a 
better mood than they were in when we last met.
    Does this thinking strike any chords with either of you?
    Dr. Carter. It certainly does with me, Mr. Chairman, both 
on the up side and on the down side. I am referring to the 
formulation that former Secretary of Defense Bill Perry used in 
the North Korea policy review, in which I participated. We 
talked of the upward path and the downward path for North 
Korea; that is, painting for them a portrait of how things get 
better for them if they forebear in the nuclear area, but also 
of how things can get worse for them, and distinctly worse, if 
they do not. The essence of diplomacy of the kind in which we 
are engaged is to create the fork in the road in which they 
need to choose that upward path or the downward path. The more 
vividly we can portray both of those paths, the more effective 
our diplomacy will be. So on the upward path, I absolutely 
agree with you that the more we can show them what a Nunn-Lugar 
ingredient of a solution might be, what an energy ingredient of 
a solution might be, the better will be our test of whether 
they are willing to give up their nuclear weapons.
    And as you point out, even if diplomacy does not succeed, 
the North Korean regime is not going to be around forever, but 
the plutonium is, or essentially forever, because plutonium 
lasts 24,000 years. So even if Kim Jong-il's regime goes away, 
we still have the problem of safeguarding the material his 
regime made. So the plans that we devise now would be pertinent 
in that scenario also.
    I think painting the downward path vividly is important as 
well. Economic sanctions are on that path. As you know 1994 was 
the year of my first acquaintance, within the Department of 
Defense, with the North Korean previous nuclear crisis. We did 
consider, in different circumstances from today, I will grant, 
military action against North Korea's nuclear program, 
specifically a strike upon the Yongbyon complex at that time, 
because we felt that the consequences of North Korea going 
nuclear were so grave that they were worth the risk attendant 
upon military action in the Korean Peninsula. And I do not 
think that is something that ought to be taken off the table by 
the United States now.
    If I may just make one other comment. Another thing you 
said, with which I agree absolutely and to which I alluded in 
my statement, is that threat reductions, stability operations--
these are things that we are not very good at. We are 
tremendously good at joint military operations. I am very proud 
that we are, and that is the paramount capability that we have 
for action overseas. But when it comes to doing other things, 
we do not always accomplish them very well. Your idea, in the 
matter of stability operations, and also threat reduction, to 
learn from our experience and bottle, so to speak, the 
experience we have in the former Soviet Union for Nunn-Lugar, 
and in Bosnia and Iraq for stability operations, for the 
future, is terribly important. Otherwise, every time we do this 
kind of thing, we are going to stand up all over again and fall 
down all over again and have to pick ourselves up. I completely 
agree with that point you made also.
    The Chairman. Do you have thoughts?
    Ambassador Pritchard. Mr. Chairman, I could not agree with 
you more in terms of the preparation that needs to be there. It 
will help in the negotiations. It will help in the long run.
    What is striking about the six-party talks is that any kind 
of element of concrete that has been put forward we have taken 
as a very positive sign. The North Koreans likewise are looking 
for anything, whether it is a negative concrete or a positive 
concrete likewise.
    Two years ago when I had the job as Special Envoy, I went 
to see Senator Nunn, thinking ahead of the process of how Nunn-
Lugar might apply to North Korea, to pick his brains on how it 
could be applied, thinking along the lines that you are now. 
Unfortunately, that was subsumed by the HEU revelation and we 
were not able to move anywhere. But I think that was a mistake. 
We should have done so early on.
    I would also say as an example of standing up KEDO or any 
kind of mechanism, whether it is Nunn-Lugar or something else, 
shows the North Koreans there is a long-term prospect in place. 
It gives them the incentive to continue to either cooperate or, 
in this case, one of the things that is missing that was asked 
of Assistant Secretary Kelly was the establishment of red 
lines. There have been no discussions with the North Koreans 
about what would occur should the North Koreans transfer 
fissile material or technology. That ought to be established 
early. It should have been established 2 years ago and it is 
not too late to do so now to put in place the concrete nature 
of the downward path that we might ultimately be faced off 
with. I hope we are not, but it needs to be there.
    The Chairman. I appreciate those answers. Let me just say 
that it has certainly been the thrust of our committee efforts 
to think about structures for nation-building for procedures 
that we need to follow. We will continue to pursue this in our 
modest way, in the hope that we can spur activity by the 
administration.
    Likewise, we are appreciative of the fact that for the 
first time, a year ago, the Nunn-Lugar funds were available, at 
least $50 million, for application outside the former Soviet 
Union. So even though theoretically thoughts have arisen about 
having these programs somewhere else, inexplicably until this 
time, it was very, very difficult for all of our colleagues in 
the Senate and the House to agree that this program might be 
useful somewhere else. That has finally come about, mercifully.
    Even if the endeavor would be more modest than it was in 
Russia, it could still be expensive. You are suggesting, 
Secretary Carter, a 10-year period of time, or at least some 
period that requires some continuity of thought and some 
bipartisan cooperation through several administrations, 
Congresses, and so forth, if our foreign policy in this very 
critical area is to be effective.
    Senator Biden.
    Senator Biden. Thank you very much. I will be brief, 
gentlemen. I know we have kept you a long time.
    Ambassador Pritchard, if the United States does not want to 
assist North Korea's energy sector, are the other parties of 
the six-party talks capable of putting an enticing enough 
package on the table in return for North Korea's nuclear 
disarmament?
    Ambassador Pritchard. The answer is probably not in terms 
of the overall package in the long term of the total removal of 
the North Korean--certainly----
    Senator Biden. The total removal of North Korean?
    Ambassador Pritchard. Nuclear program.
    Senator Biden. So then this is a non-starter.
    Ambassador Pritchard. Well, let me suggest the initial 
phase, in terms of provisions of heavy fuel oil or interim 
energy, Japan and South Korea are capable of doing. There are 
other ways in which to skin this cat, when you take a look at 
the value of energy, when you take a look at rehabilitation 
efforts, not simply the provision of concrete coal or other 
things that would be of significant value, the rehabilitation 
of mining, new construction. Others can do that.
    Senator Biden. But the bottom line is, are you saying that 
if Secretary Kelly's position, as he stated it here today, were 
a concrete position held by this administration, that we will 
not participate in providing any of the energy needs of North 
Korea in return for a commitment, as I understood it, for total 
disarmament of the nuclear capability, then what is there 
that--I mean, is this not a non-starter?
    Ambassador Pritchard. If I may, sir. There are two parts to 
that, one of which is the absolute. Could the others come up 
together with absolute packages of energy that might be able to 
entice in absolute terms North Korea to do x, y, or z?
    Senator Biden. Not x, y, or z. Total disarmament is 
specifically my question.
    Ambassador Pritchard. Theoretically perhaps. I would tell 
you as a negotiator that it is a non-starter from a North 
Korean point of view----
    Senator Biden. That is what I am saying.
    Ambassador Pritchard [continuing]. That the lack of U.S. 
commitment and involvement in this process, allowing others to 
do this, where the only commitment from a North Korean point of 
view in the 1994 Agreed Framework in terms of the provision of 
benefits was the U.S.----
    Senator Biden. Provision of energy. I am just trying to 
focus specifically. I asked Secretary Kelly are we prepared to 
provide for what I called incentives and he was calling 
incentives in the nature of fuel or money. And he said no, we 
are not prepared to do that. We will not reward them for doing 
the right thing, which is to disarm or end their nuclear 
program. So if your expert opinion is there is no reasonable 
circumstance in which the North Koreans would be prepared to 
agree to forego their nuclear program and nuclear capability 
because they could not get a sufficient commitment on their 
energy needs, absent a U.S. commitment as part of their energy 
needs, then this is a non-starter in your view.
    Ambassador Pritchard. It is a non-starter, but it is not 
solely linked to energy. It is the commitment by the United 
States to be part of the process and it is simply insufficient 
for a North Korean to accept that the only U.S. commitment is 
the provision of a security guarantee.
    Senator Biden. No. They said they would do other things. 
They said they would consider other commitments.
    But at any rate, I do not want to beat this to death. I was 
just trying to get a sense of this.
    Secretary Carter, you have criticized the Bush policy, as I 
have I might add, toward North Korea as being ineffective, 
lacking carrots and sticks. How do you view this latest round 
of negotiations, particularly the new U.S. proposal as laid out 
and as articulated by Secretary Kelly today? Is it good, bad, 
indifferent? Is it sufficient? How would you characterize it? 
Is it still ineffective policy?
    Dr. Carter. Senator, it is not even possible to say whether 
the policy has been effective or not, because in my 
observation, the administration has been divided within itself 
for the last few years.
    Senator Biden. Well, that is clear.
    Dr. Carter. That is the basic reason why a proposal has not 
been tabled up until now.
    Senator Biden. Well, they tabled the proposal, though.
    Dr. Carter. Now they have a proposal tabled.
    Senator Biden. How about the present proposal? Is it an 
effective proposal? Is it the way you would be moving? Given 
the circumstances as they have unfolded in the last 2\1/2\ 
years, notwithstanding what I happen to believe are your 
legitimate observations of the mistakes made and the 
opportunities lost, notwithstanding that, tomorrow the 
President of the United States or a future President of the 
United States says to you, Carter, you are in charge of this 
policy. What do you do now today? You are in charge. What do 
you do relative to North Korea or the five other parties that 
is not being done now, or is what has been recently tabled a 
sufficient and the appropriate starting point from this day 
forward?
    Dr. Carter. I do not know whether it is sufficient, but I 
think it has the right ingredients in it, namely on our part 
the offer of, first of all, the security assurances, which I 
think are very significant to North Korea, coming from us. They 
are intangible. As I said, I think there is something we should 
be prepared to offer, and I think we have substantial leverage 
with that.
    Second, the provision of Nunn-Lugar type assistance with 
dismantlement, as I said, is not a reward but is a defense by 
other means, as I quoted from Bill Perry to characterize that 
kind of assistance.
    When you get to what else we, the United States, might 
offer that is tangible, I think it is still not clear in this 
proposal, and it was not clear to me anyway from the testimony 
just given.
    Senator Biden. Would you put forward----
    Dr. Carter. Let me just finish that thought.
    One of the strengths, Senator Biden, of the six-party talks 
and in the past of working with our allies was that together 
the portfolio of things that we, being different countries with 
different proclivities and different historical traditions and 
so forth, are willing to offer North Korea, and also the 
penalties that we can impose, are different for all our 
different negotiating partners. That is a strength of the six-
party approach. So it may be that Japan, it may be that South 
Korea, it may be that Russia, it may be that China are prepared 
to do things in the energy field that the United States, at the 
end of the day, is not prepared to do. That is fine. They can 
still be part of the deal. I am not prepared to say now that if 
the United States is not the provider of energy assistance, 
that energy assistance will not be an effective part of this 
package.
    So I am comfortable with the mix of ingredients that are in 
here, as you characterized. I absolutely agree. I regret that 
years have passed and we have not been exploring this path. I 
think this is a reasonable mix of things to put in an initial 
package before North Korea. Whether they will go for it, as I 
said, at this point I am not sure.
    Senator Biden. Right. I think we are all in that same 
position.
    Let me conclude with one more question, Mr. Chairman. I 
remember early on when the Clinton administration concluded the 
original deal, the Agreed Framework, with North Korea talking 
to then Secretary of Defense Perry, and I asked him what the 
most important element was, and he said staying on the same 
page as the South Koreans and the Japanese. It struck me as 
both self-evident and elusive, that notion. I had not thought 
of it in those terms. I just subconsciously assumed that was 
necessary, but I did not think of it in terms of a need for a 
proactive and sometimes difficult undertaking.
    Are we on the same page now, do you think? Is this 
administration now on the same page as Tokyo and Seoul as it 
relates to North Korea?
    Dr. Carter. I do not think we have been fully on the same 
page in the last few years. I hope this begins to put us on the 
same page. You are right. Bill Perry was right. No American 
policy toward North Korea can succeed unless it has the support 
of at least Japan and South Korea. Both in the carrots area and 
in the sticks department, as I mentioned earlier, we are 
stronger if we are working with them, because they have carrots 
and they have sticks that we do not have, and as a phalanx, we 
are a more powerful force in dealing with----
    Senator Biden. And conversely our ultimate stick does not 
have much stick if it is clear that Japan and South Korea do 
not support it.
    One of the things that I find interesting, after having had 
the honor of serving with seven Presidents, is that Presidents 
or administrations never like to acknowledge that they are 
changing course on anything. But it seems to me that one of the 
benefits of the six-party talks has been that the South Koreans 
and the Japanese have basically said, hey, we ain't continuing 
down this road you have been going. We are going to start to 
explore outside these six-party talks a different and emerging 
relationship with North Korea, which it seems to me was a bit 
of an epiphany for this administration and brought us to the 
point we are now of having tabled something that has the 
elements that in my view should have been tabled on day one.
    I draw some sense of optimism about not what North Korea 
will or will not do, based on the time squandered and how far 
behind the 8 ball we are now, but on the notion that at least 
we seem to be over, within this administration, what was an 
extremely difficult ideological conflict that was taking place 
which was to even think about guaranteeing security. No matter 
what a member of the ``axis of evil'' did, they were still per 
se evil, and how can you sign an agreement or sign onto a 
multiparty agreement that provides security assurances for an 
evil empire?
    That seemed to me to be the ultimate difficulty this 
administration faced. They knew any part of any agreement, any 
possibility of an agreement with North Korea required a 
security assurance, and how do you do that? How do you do that 
if you have already decided--whether or not they have nuclear 
weapons, no matter what they do, the people in power are bad 
guys? I hope this reflects that that debate has been settled 
within the administration, but I do not know.
    Dr. Carter. May I comment on one thing you said?
    Senator Biden. Yes, please respond.
    Dr. Carter. I also believe that the fact that our partners 
and allies were beginning to stray and seek their own separate 
channels to North Korea was a factor that lent urgency to the 
need for us to--I will not say change course--but to chart a 
course in these negotiations which we had had difficulty doing. 
So both for that reason, and because of the paramount reason, 
which is that North Korea is reprocessing plutonium, it is 
urgent to chart this course and get on with it; to do the 
experiment of seeing whether North Korea can, in fact, be 
persuaded diplomatically to give up its nuclear program.
    Senator Biden. I thank you both very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you again, Senator Biden.
    We had good questions raised by our colleague, Senator 
Brownback, about human rights, as well as an assertion by 
Assistant Secretary Kelly that this is an extremely important 
point. However, there are priorities with regard to all of 
this, in the context of the nuclear problem. Nuclear 
proliferation is the prime focus of our negotiators. I mention 
this because reference has been made to our experiences with 
the former Soviet Union, and then the successor states. Many 
times during the Nunn-Lugar debates, people would bring up, how 
can you possibly think about sending assistance of any sort, 
technical or money, to a regime that has caused the loss of its 
own people? How can you deal with this?
    That is going to be a recurring problem. Regarding the 
Soviet Union, we decided that we should deal with this in terms 
of our security, so that warheads and missiles that are aimed 
at us, 13,000 of them would not be aimed at us. It is a tough 
call. As you can see in our own dialog today, we have different 
points of emphasis, although you always hope it all comes out 
in the same way.
    Being on the same page with South Korea and Japan is an 
optimum situation. Dr. Carter mentioned that the young people 
in South Korea are not really on the same page with us, and 
might not be for a while. In other words, in the timeframe of 
how we all get to the same page, some very bad things could 
occur. Now, that does not call for unilateral action on our 
part. But I appreciate the problem of our negotiators, who are 
trying to move along in the six-party talks with a high degree 
of unity, which I think they are attempting to achieve.
    Having said that, our committee has, as it was indicated 
earlier today by my friend, Joe Biden, been spurring our 
negotiators for some time to move toward the position that 
apparently they now have. So there is some satisfaction in 
seeing that kind of movement. We are grateful to our 
negotiators for coming to the committee in public session. But 
the fact is we have had today a hearing about very serious 
American diplomacy in a public session with very well informed 
people from the past administrations as well as the current 
one.
    So I call upon that as an achievement of sorts in itself. 
We have heard some very good ideas that we might pursue, 
including these designs that you have suggested about the 
explicit nature of what might be more credible in terms of our 
own negotiating procedure. Perhaps we can assist our own 
negotiators in trying to formulate some of those ideas even 
further in concrete terms that will be helpful to us.
    I thank both of you very much for your testimony, for your 
excellent papers, and for your forthcoming responses. We look 
forward to visiting with you both again.
    The hearing is adjourned.
    [Whereupon, 12:15 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


                   Statement Submitted for the Record


  Prepared Statement of U.S. Committee for Human Rights in North Korea

                               part three
   summary of torture and infanticide information provided by former 
          prisoners and detainees interviewed for this report
I. Torture Summary
    <bullet> According to almost all of the former-prisoner testimony 
gathered for this report--from All Lamada's 1967 Sariwon prison 
testimony to the post-2000 testimonies of North Koreans forcibly 
repatriated from China--the practice of torture permeates the North 
Korean prison and detention system.
    <bullet> Former Detainee #1 was beaten unconscious for hunger-
related rule infractions in 1997 at the Nongpo jip-kyul-so (detention 
center) in Chongjin City. He also reported that detainees there were 
beaten with shovels if they did not work fast enough.
    <bullet> Former Detainee #3 reported the use of an undersized 
punishment box at the Danchun prison camp in which camp rule-breakers 
were held for fifteen days, unable to stand-up or lie down. He also 
reported that beatings of the prisoners by guards were common.
    <bullet> LEE Young Kuk reported that he was subjected to 
motionless-kneeling and water torture and facial and shin beatings with 
rifle butts at the Kuk-ga-bo-wi-bu interrogation/detention facility in 
Pyongyang in 1994, leaving permanent damage in one ear, double vision 
in one eye, and his shins still bruised and discolored as of late 2002.
    <bullet> KANG Chol Hwan reported the existence of separate 
punishment cells within Kwan-li-so No. 15 Yodok, from which few 
prisoners returned alive.
    <bullet> Former Prisoner #6 reported that prisoners were beaten to 
death by prison workunit leaders at Danchun Kyo-hwa-so No. 77 in North 
Hamgyong Province in the late 1980s.
    <bullet> AHN Myong Chol, a former guard, reported that all three of 
the kwan-li-so at which he worked had isolated detention facilities in 
which many prisoners died from mistreatment, and that at Kwan-li-so No. 
22 there were so many deaths by beatings from guards that the guards 
were told to be less violent.
    <bullet> Former Detainee #8 reported that male prisoners were 
beaten by guards at the Chongjin jip-kyul-so in mid-2000.
    <bullet> Former Detainee #9 reported that detainees at the Onsong 
ro-dong-dan-ryeon-dae (labor-training camp) were compelled to beat each 
other.
    <bullet> KIM Sung Min reported that in 1997 at the Onsong bo-wi-bu 
(National Security Agency) detention center, his fingers were broken 
and he was kicked and beaten on the head and face until his ears, eyes, 
nose, and mouth bled.
    <bullet> RHYU Young II saw, in 1997, that out of six persons in an 
adjacent cell in the bo-wi-bu interrogation facility where he was 
detained in Pyongyang, two were carried out on stretchers, two could 
walk only with the assistance of guards, and two could walk out by 
themselves. Detainees who moved while they were supposed to be sitting 
motionless and silent for long periods were handcuffed from the upper 
bars of their cells with their feet off the floor. Detainees who talked 
when they were supposed to be sitting motionless and silent were 
compelled to slap and hit each other.
    <bullet> Former Prisoner #12 reported that at Hoeryong kyo-hwa-so 
in the early to middle 1990s, minor rule-breakers were beaten by their 
cellmates on the orders of the guards, and major rule-breakers were 
placed in a 1.5-meter-square (16.5-feet-square) punishment cell for a 
week or more.
    <bullet> LEE Min Bok reported being beaten ``many times'' on his 
fingernails and the back of his hands with a metal rod during 
interrogation at the Hyesan detention center in 1990. He also reported 
that at the Hyesan In-min-bo-an-seong (People's Safety Agency) 
detention facility, where he was subsequently held, prisoners were 
compelled to beat each other. Lee witnessed one prisoner, KIM Jae Chul, 
beaten to death.
    <bullet> Former Detainee #15 reported that he was beaten with 
chairs and sticks at both the Hoeryong and Onsong In-min-bo-an-seong 
jails in early 2002.
    <bullet> LEE Soon Ok reported that she experienced beatings, 
strappings, and water torture leading to loss of consciousness, and was 
held outside in freezing January weather at the Chongjin In-min-bo-an-
seong pretrial detention center in 1986. Her account of beatings and 
brutalities in the early to middle 1990s at Kaechon women's prison, 
Kyo-hwa-so No. 1, (in her prison memoirs) are too numerous to detail 
here.
    <bullet> JI Hae Nam confirmed the existence of miniature punishment 
cells at Kyo-hwa-so No. 1 and reported that beatings and kicking of 
women prisoners were a daily occurrence in the mid-1990s. She also 
reported beatings, during interrogation or for prison regulation 
infractions, in late 1999 at the Sinuiju bo-wi-bu jail, where she was 
required to kneel motionless, hit with broomsticks, and required to do 
stand-up/sit-down repetitions to the point of collapse, in her case in 
thirty to forty minutes.
    <bullet> KIM Yong reported that he was beaten at the bo-wi-bu 
police jail at Maram and was subjected to water torture and hung by his 
wrists in the bo-wi-bu police jail at Moonsu in 1993.
    <bullet> KIM Tae Jin reported that he was beaten, deprived of 
sleep, and made to kneel motionless for many hours at the bo-wi-bu 
police detention/interrogation facility in Chongjin in late 1998/early 
1999.
    <bullet> YOU Chun Sik reported that he was kicked, beaten, and 
subjected to daylong motionless-sitting torture at the bo-wi-bu police 
jail in Sinuiju in 2000. He described the motionless-sitting as being 
more painful than the beatings.
    <bullet> Former Detainee #21 reported that she was beaten 
unconscious in mid-1999 at the In-min-bo-an-seong (People's Safety 
Agency) ku-ryu-jang (detention/interrogation facility) at Onsong, where 
detainees were beaten so badly that they confessed to doing things they 
had not done. Women were hit on their fingertips. She witnessed one 
very ill woman who was compelled to do stand-up/sit-down repetitions 
until she died.
    <bullet> Former Detainee #22 reported that he was beaten with 
chairs at Onsong bo-wi-bu (State Security Agency) police jail in late 
2001, and beaten even worse at the Chongjin In-min-bo-an-seong 
detention center in early 2002.
    <bullet> Former Detainee #24 reported that there were beatings at 
the bo-wi-bu police jail in Sinuiju in January 2000.
    <bullet> Former Detainee #25 reported that one woman, a former 
schoolteacher who had been caught in Mongolia and repatriated to China 
and North Korea, was beaten nearly to death at the Onsong In-min-bo-an-
seong detention center in November 1999, and then taken away either to 
die or, if she recovered, for transfer to Kyo-hwa-so No. 22.
    <bullet> Former Detainee #26 was made to kneel motionless at the 
Onsong bo-wi-bu police jail in June 2000 and was made to sit motionless 
for six days at the Hoeryong bo-wi-bu police jail in July 2001.
    <bullet> Former Detainee #28 reported that prisoners were beaten to 
death at the Kyo-hwa-so No. 12 at Jeonger-ri in North Hamgyong Province 
in 1999.
II. Ethnic Infanticide Summary
    There are sporadic reports of forced abortions and baby killings at 
the kwan-li-so, where, except for a very few privileged couples, the 
prisoners were not allowed to have sex or children. There are also 
sporadic reports of forced abortion and baby killings at the kwan-li-
so, where sex between prisoners is prohibited.
    And there are sporadic reports of killings of pregnant women who 
were raped or coerced into sex by prison guards. However, this report 
focuses on the forced abortions and baby killings directed against and 
inflicted on women forcibly repatriated from China, because of the 
ethnic and policy components of those atrocities.
    <bullet> CHOI Yong Hwa assisted in the delivery of babies, three of 
whom were promptly killed, at the Sinuiju do-jip-kyul-so (provincial 
detention center) in mid-2000.
    <bullet> Former Detainee #8 witnessed six forced abortions at 
Chongjin do-jip-kyul-so in mid-2000.
    <bullet> Former Detainee #9 witnessed ten forced abortions at 
Onsong ro-dong-dan-ryeon-dae (labor-training camp) in mid-2000.
    <bullet> YOU Chun Sik reported that four pregnant women at the bo-
wi-bu (National Security Agency) police station in Sinuiju were 
subjected to forced abortions in mid-2000.
    <bullet> Former Detainee #21 reported two baby killings at the 
Onsong In-min-bo-an-seong (People's Safety Agency) police station in 
late 1999.
    <bullet> Former Detainee #24 helped deliver seven babies who were 
killed at the Backtori, South Sinuiju In-min-bo-an-seong police 
detention center in January 2000.
    <bullet> Former Detainee #25 witnessed four babies killed at Nongpo 
In-min-bo-an-seong police detention center in Chongjin in late 1999, 
and another six pregnant women subjected to forced abortion.
    <bullet> Former Detainee #26 witnessed three forced abortions and 
seven babies killed at the Nongpo jip-kyul-so (detention center), 
Chongjin City, in May 2000.

                                 <all>

</pre></body></html>
